<html>
<title> - THE DEPARTMENT OF HOMELAND SECURITY MAJOR INITIATIVES FOR 2007 AND BEYOND</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                  THE DEPARTMENT OF HOMELAND SECURITY 
                 MAJOR INITIATIVES FOR 2007 AND BEYOND 

=======================================================================

                              FULL HEARING

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2007

                               __________

                           Serial No. 109-106

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                     U.S. GOVERNMENT PRINTING OFFICE

35-628 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


















                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                   II



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable G. Thompson, a Representative in Congress From the 
  State of Mississippi, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     2
  Prepared Statement.............................................     3
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    38
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the States of California.......................................    20
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................    40
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    32
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada................................................    47
The Honorable Jane Harman, a Representative in Congress From the 
  State of Caifornia.............................................    52
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    42
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas:
  Oral Statement.................................................    24
  Prepared Statement.............................................    25
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California............................................    53
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    48
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    23
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Washington........................................    45
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas........................................    37
The Honorable Kendrick B. Meek, a Representative in Congress From 
  the State of Florida...........................................    35
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State New Jersey......................................    28
The Honorable Stevan Pearce, a Representative in Congress From 
  New Mexico.....................................................    30
The Honorable Dave G. Reichert, a Representative in Congress From 
  the State of Washington........................................    33
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama...............................................    43
The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut...........................................    27
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana...........................................    19
The Honorable Ginny Brown-Waite, a Representative in Congress 
  From the State of Florida
  Oral Statement.................................................    50
  Prepared Statement.............................................    50

                                Witness

The Honorable Michael Chertoff, Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     7
  Questions and Responses for the Honorable Michael Chertoff.....    56


                       THE DEPARTMENT OF HOMELAND



                      SECURITY'S MAJOR INITIATIVES



                          FOR 2007 AND BEYOND

                              ----------                              


                      Tuesday, September 26, 2006

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:09 a.m., in Room 
311, Cannon House Office Building, Hon. Peter King [chairman of 
the committee] presiding.
    Present: Representatives King, Souder, Lungren, Gibbons, 
Simmons, Rogers, Pearce, Jindal, Reichert, McCaul, Dent, Brown-
Waite, Thompson, Markey, Dicks, Harman, DeFazio, Lowey, Norton, 
Lofgren, Jackson-Lee, Pascrell, Christensen, Etheridge, 
Langevin, and Meek.
    Mr. King. [Presiding.] The Committee on Homeland Security 
will come to order.
    The committee is meeting today to hear testimony from 
Secretary Chertoff on the Department of Homeland Security's 
major initiatives for 2007 and beyond.
    I would like just to make a very brief opening statement, 
and hopefully it will set the tone for the morning so we can 
move through this so that each member will get the opportunity 
to ask a question and the secretary will get a chance to answer 
those questions.
    I have discussed this with the ranking member, my friend 
Mr. Thompson, and it is agreed that the 5 minutes will include 
both the question and the answer. So I would ask members to 
make their questions as brief as possible so the secretary will 
get a chance to fully answer it within the 5-minute time limit.
    It is my stated goal and pledge to make sure we reach Mr. 
Meek on the questions today.
    [Laughter.]
    That is the intention.
    And let me, at the outset, also thank Secretary Chertoff 
for being here this morning, thank him for his service. We 
realize he has a very busy schedule, but I believe it is also 
imperative that the secretary appear before this committee on a 
regular basis. And we certainly appreciate you being here 
today.
    I would just make several comments, Mr. Secretary. 
Obviously there have been some differences between our 
committee and yourself and the department. That, to me, is 
normal in a democratic society. And also the fact that the 
department is now in its 4th year, our committee is in its 2nd 
full year. And I believe that all of us are going forward 
though, and tremendous progress is being made.
    I especially want to commend the department for the way the 
entire unraveling of the London plot was handled. It was very 
important that, unlike in previous times when there was a major 
news conference held or a major announcement made, the 
secretary of homeland security, it was clear, was in charge and 
that all the other departments were subordinate to the 
department.
    Not to be playing turf wars here, but I believe that, for 
the department to be the effective voice for homeland security, 
it has to be clear that the secretary is in charge. And that 
was certainly demonstrated this past August. I want to commend 
you for that, for establishing that priority.
    Also I believe that your team seems to be much more in 
place: Michael Jackson, Kip Hawley--we could go through a list, 
obviously. And much more has to be done; I am sure you will 
hear that from both sides today, what we feel needs to be done. 
Certainly you and I have had some differences over the aid 
package to New York and other areas around the country. But all 
of that is part of the ongoing dialogue.
    So I will now end my remarks with that, just to say we look 
forward to your testimony, and yield to the gentleman from 
Mississippi, the ranking member, Mr. Thompson.
    Mr. Thompson. Thank you very much.
    Welcome, Mr. Secretary.
    Let me compliment the chairman on our new digs.
    [Laughter.]
    It is absolutely very nice. I appreciate it.
    Again, Mr. Secretary, we are glad you are here. It has been 
a while. In fact, it has been more than 6 months since you 
testified before this full committee.
    And a lot of things have happened in that time frame. We 
have seen fraud allegations against FEMA; an uproar over 
foreign ownership of ports; questions about contracting 
practices and vacancies; faulty grant formulas that cut the 
funding to D.C. and New York City, two cities directly targeted 
by the 9/11 terrorists. And the list goes on.
    I hope we can get a commitment from you to appear more 
often before the committee, so that we can do effective 
oversight on what some of us see as a still-troubled 
department.
    I hope today we can get honest dialogue on what troubles 
the department, devoid of political speeches, euphemisms and 
feel-good testimony that portray an unrealistic view of your 
agency.
    The truth of the matter is that the department has a long 
way to go if it is to protect our nation. Yes, there have been 
some bright moments here and there, such as your outreach 
during the London air threat, but those remain overshadowed by 
what we have left undone.
    Overshadowed, for example, by the memories and lessons of 
Hurricane Katrina and Rita. Two days ago marks the 1-year 
anniversary of Hurricane Rita striking the Gulf Coast. Friday 
marks the 1-year-and-1-month anniversary of Hurricane Katrina. 
And from what I have observed, the department may be falling 
back into a pre-Katrina mindset.
    This shows in FEMA's continuing staffing crisis. Just a few 
weeks ago, the GAO found that you still have not issued the 
critical catastrophic planning supplement to the National 
Response Plan. I have also seen the struggle of thousands in my 
home state of Mississippi, who are still living in FEMA 
trailers.
    Mr. Secretary, America simply cannot go back to a pre-
Katrina mindset, just as we can't go back to a pre-9/11 
mindset, which I am also fearful of.
    Lately there has been a lot of talk about all the kinds of 
security: border, port, cargo and chemical. The volume seems to 
be turning up rather loud these days on the security rhetoric, 
but I don't see the rhetoric, however, with the resources.
    Just yesterday, The Washington Post ran a story on the 
security appropriations bill in Congress, which, Mr. Chairman, 
I would like to enter into the record, and it--
    Mr. King. Without objection, it will be so entered.
    Mr. Thompson. And basically, it said it is more style than 
substance. We absolutely need to fund as many of our 
vulnerabilities as we know.
    Mr. Secretary, I know you would agree with me that our 
homeland security efforts must urgently address 21st-century 
threats, whether from man-made or natural disasters. That is 
why today I ask you to help me help you.
    Help me help you by telling us what we need to do to secure 
our nation against 21st-century threats. Help me help you by 
telling us what remains left to be done and by not giving us 
another laundry list of the department's perceived successes. 
We get the press releases and don't need to have a hearing to 
read them or have you recite them back to us.
    Mr. Secretary, help me help you by talking frankly about 
what it will cost to implement some vitally important but badly 
overdue security initiatives. Help me help you, and together we 
all will help the American people.
    I yield back the balance of my time.

         Prepared Statement of the Honorable Bennie G. Thompson

    Mr. Secretary, we're glad to have you here. It's been a while since 
we've seen you. In fact, it has been more than six months since you've 
testified before this Full Committee--and a lot has happened in that 
time frame. We've seen. . . fraud allegations against FEMA, an uproar 
over foreign ownership of ports, questions about contracting practices 
and key leadership vacancies, faulty grant formulas that cut funding to 
DC and New York City-the two cities directly targeted by the 9/11 
terrorists. . . And the list goes on and on. . .
    Moving forward--I hope I can get a commitment from you to appear 
more often before this Committee so that we can conduct more effective 
oversight over a still-troubled Department. I hope today that we have 
an honest dialogue of what troubles the Department--devoid of political 
speech, euphemisms, and feel-good testimony that portray an unrealistic 
view of your agency.
    The truth of the matter is that the Department has a long way to go 
if it is to protect our nation. Yes, there have been some bright 
moments here and there--such as your outreach during the London air 
threat--but those instances remain overshadowed by what has been left 
undone. Overshadowed, for example, by the memories and lessons of 
Hurricanes Katrina and Rita.
    Two days ago marks the one year anniversary of Hurricane Rita 
striking the Gulf Coast. Friday marks the one year, one month 
anniversary of Katrina. And, from what I've observed, the Department 
may be falling back into a pre-Katrina mindset. This shows in FEMA's 
continuing staffing crisis. Just a few weeks ago, the GAO found that 
you still have not issued the crucial catastrophic planning supplement 
to the National Response Plan. I've also seen the struggle of thousands 
in my home state of Mississippi who are still living in FEMA trailers. 
Mr. Secretary, America simply cannot go back to a pre-Katrina mindset.
    Just as we can't go back to a pre-9/11-mindset, which I'm also 
fearful of. Lately, there has been a lot of talk about all kinds of 
security--border, port, cargo, and chemical. The volume seems to be 
turned up rather loud these days on the security rhetoric. What I don't 
see in the rhetoric, however, are the resources.
    Just yesterday, the Washington Post ran this story, on the security 
appropriations bill in Congress, which I would like to enter into the 
record as part of my testimony. For those who can't read the headline, 
it says--Homeland Security Bill Is More Style than Substance, Analysts 
Say. The article points out, for example, that the bill only pays for 
at most a little more than half of the 700 mile fence that so many of 
my colleagues felt the need to re-vote on two weeks ago because of its 
alleged necessity to our border efforts. The article quotes a Heritage 
Foundation scholar as saying, ``most of it, quite frankly, is a lot of 
political theater.''
    Upon reading the article, I wanted to say to those who are 
advocating last minute security initiatives in these final weeks ``show 
me the money.'' Otherwise, we will continue to just have the ``security 
on the cheap'' approach that is leaving our nation vulnerable.
    Mr. Secretary, I know you would agree with me that our homeland 
security efforts must urgently address 21st century threats--whether 
from man-made or natural dangers. That is why today, I ask you to 
``help me help you.'' Help me help you by telling us what we need to do 
to secure our nation against 21st century threats. Help me help you by 
telling us what remains left to be done and by not giving us another 
laundry-list of the Department's perceived successes. We get the press 
releases and don't need to have a hearing to read them or have you 
recite them back to us. Mr. Secretary, help me help you by talking 
frankly about what it will really cost to implement some vitally 
important--but badly overdue--security initiatives. Help me help you 
and together we'll all help the American people.

    Mr. King. I thank the gentleman from Mississippi.
    And, again, I remind members of the committee that, under 
our rules, opening statements are limited to the chair and 
ranking member. However, all members are entitled to submit 
written opening statements for the record.
    Due to our time constraints today, we will move immediately 
to the testimony from our witness. And, as I mentioned before, 
our witness today is the Honorable Michael Chertoff, secretary 
of the Department of Homeland Security. And I now recognize 
Secretary Chertoff.
    Secretary Chertoff?

STATEMENT OF HON. MICHAEL CHERTOFF, SECRETARY, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Secretary Chertoff. Thank you, Mr. Chairman, and thank you, 
Ranking Member Thompson and members of the committee. I 
appreciate the opportunity to testify before you.
    And I agree with what Ranking Member Thompson said a few 
moments ago. This should be an honest and open dialogue about 
what we have accomplished and what we continue to need to do in 
order to make sure that we complete the job that everybody here 
wants to get done.
    I think this is an area where everybody is on the same page 
and has the same objective. We want to make this country as 
secure as possible, but of course without sacrificing our way 
of life or our fundamental freedoms.
    And while there may be differences of opinion about the 
best way to achieve some of these goals, I don't think that 
anybody should have a doubt about our being united on the fact 
that we do want to achieve a good result for the American 
people.
    I would say that there are three basic principles that I 
want to rely upon in talking about where we have come and where 
we need to go over the next year.
    The first is I think we have to be realistic. We have to be 
realistic about what resources we have, what the constraints 
are in what we can do, but also about the urgent need to 
address the issue of terrorism, which remains very much a 
serious threat against the American people.
    There is no question that we are safer now than we have 
ever been against the threat of terror. But it is also without 
a doubt that the enemy is continuing to adapt and change, and 
we have to not only keep pace but we have to stay ahead of 
them.
    And that is our challenge, is not to become complacent or 
rest upon the fact that we have not been successfully attacked 
in the past 5 years, but to look ahead for the next 5 years, to 
make sure that there is no success for the enemy over that 
period of time as well.
    Second, we have to constantly challenge ourselves and our 
assumptions through a dialogue. I am the last person to say 
that I am the repository of all the received wisdom on homeland 
security. I am willing to listen to constructive suggestions 
and adopt those that are appropriate. And I think we need to 
continue to move forward in that spirit of constructive 
engagement.
    And finally, I think we need to have a clear strategy about 
where we are headed. And what I want to do today, both in my 
first statement, which I ask be made part of the record, and in 
my oral testimony, is address that strategy.
    Let me divide what we have to do into five general 
categories.
    First, we have to screen bad people out of the country. 
That is a critical listen that we all learned on September 
11th.
    We have made some very significant steps in that regard. We 
have unified watchlists. We now have the ability to keep people 
that we know to be terrorists from crossing our borders and 
entering the country to do us harm. Every day our border 
inspectors and Border Patrol agents are turning away dangerous 
people from entering this country.
    But we also have to confront the challenge of the unknown 
terrorist, the person who is a threat but whose identity we 
have not yet been able to uncover.
    And we can address that in two ways: one by collecting a 
little bit more information about individuals and their travel 
pattern and their communications and who pays for their 
tickets; and the second by using the fingerprint, which 
everybody who watches television knows is probably still the 
best forensic tool that people have in identifying those who 
have done bad things in the past.
    And so, our strategy, moving forward, is to leverage on 
both of those capabilities: increased information about people 
who are potential threats to the country and increased use of 
biometric identifiers like fingerprints.
    For that reason, we are currently engaged with the European 
Union in moving forward with respect to passenger name record 
data--that is, the additional data accumulated by the airlines 
for international travelers that we can use, if we are 
permitted to, applied against our databases, to identify those 
who have had tickets paid for by terrorists or who have been in 
communication with terrorists or who have been travelling with 
terrorists.
    And I am optimistic, but also very determined, to make sure 
that, as we move forward with the Europeans over the next year, 
we have the permission and the ability to use this kind of 
information with our databases to increase the level of 
protection against people who are perhaps not yet identified as 
threats but who are very much real threats if we look at their 
background.
    Second, and perhaps even more important, this fall we are 
going to begin to deploy our 10-fingerprint-capture machines 
that will allow us to capture from people who seek visas to 
enter the U.S. and who enter our ports of entry not only the 
two fingerprints we currently collect with our U.S.-VISIT 
program but all 10 fingerprints.
    What that will enable us to do is to run the fingerprints 
of every non-American entering the United States against a 
database of latent fingerprints collected from safe houses and 
battlefields and bomb fragments all over the world.
    What it means when we get this system fully deployed, which 
I anticipate and expect to do over the next couple of years, is 
that every terrorist, even if their name is not known to us, 
who has ever been in a safe house or who has ever built a bomb 
or who has ever been on a battlefield carrying arms against the 
U.S. will have to wonder whether we have got their 
fingerprints. Because if we have those fingerprints, we will 
catch them when they cross the American border.
    And that will be a huge, giant step forward in raising our 
defense against bad people coming into this country.
    The second area we have to focus on is screening cargo. I 
am pleased, of course, that there is a port bill that this 
House passed that I think is an excellent bill. I know it is 
currently entering into the conference phase. And that is one 
dimension of the steps forward we are taking in screening bad 
cargo out of the country.
    We are intending to collect more and more data about cargo. 
We expect to have deployed by the end of this year radiation 
portal monitors that cover 80 percent of the container cargo 
coming into this country. And we will be at almost 100 percent 
by the end of next year.
    These are big steps forward, but we want to continue moving 
forward in that line, including by promoting screening overseas 
as rapidly as we can accomplish it and working with our foreign 
allies in the private sector to get that done.
    Third, as you have pointed out, Mr. Chairman, we are doing 
a lot more with respect to airline security, but we are also 
doing quite a bit more with respect to rail security and other 
modes of infrastructure protection, as evidenced most recently 
by the announcement yesterday of almost $400 million in 
transportation infrastructure grants.
    The fourth area is intelligence and information-sharing, 
where we have not only achieved the level of information-
sharing unheralded in this past year, but where we are now 
working very closely with our major state and local 
stakeholders to make sure that our vertical information-
sharing, including embedding information analysts in local 
information fusion centers, is progressing as a very high 
priority.
    Finally, let me talk about preparedness and response. We 
have undertaken a major retooling of FEMA, which gives us 
capabilities that this agency has never had before.
    And I am pleased to tell you, Mr. Thompson, that the GAO 
was wrong in saying that we haven't issued the catastrophic 
incident supplement, because I actually signed it a couple of 
months ago. And I think GAO might have been a little bit behind 
in its information.
    Finally, let me observe that there are three areas where I 
think Congress is well on its way to helping us make this 
country safer.
    The first is in the area of chemical security. I 
understand, although I haven't seen the final language, that 
there is action that has been taken on that, with respect to 
the appropriation legislation that is currently before the 
Congress. I think the ability to give us the power to issue 
interim regulations will be a very, very important tool, and we 
intend to deploy it as soon as Congress gives us the power to 
do so.
    Second, if Congress is able to pass a port-centered 
security bill, I think that is going to be a big step forward, 
in terms of giving us some additional tools to continue to do 
the job we are doing.
    And finally, in the area of immigration, I want to commend 
the House for passing legislation last week to address the 
issue of what I call stale injunctions--injunctions that are 
inhibiting our ability to rapidly address the issue of illegal 
migration. The work of this House in passing that so-called 
Orantes legislation has been very helpful to us. And if it 
passes the full Congress, we look forward to implementing that 
tool as well.
    Thank you, Mr. Chairman and Ranking Member Thompson. And I 
look forward to answering your questions.
    [The statement of Secretary Chertoff follows:]

          Prepared Statement of the Honorable Michael Chertoff

INTRODUCTION
    Chairman King, Ranking Member Thompson, and Members of the 
Committee: I appreciate the opportunity to appear before the Committee 
today to discuss the Department of Homeland Security's key priorities 
for 2007 and for the years to come.
    At the outset, I'd like to thank the Committee for its ongoing 
leadership and support, particularly your efforts over the past year to 
move forward on critical legislation that will ensure our Department 
has the resources and authority needed to protect our ports, our 
borders, and our chemical facilities.
    Of course, two weeks ago our nation observed an important milestone 
by commemorating the five year anniversary of the 9/11 attacks. We 
paused to remember the unimaginable evil of the 19 hijackers that 
turned our commercial aircraft into Weapons of Mass Destruction. We 
honored the lives of the 3,000 innocent men, women, and children who 
were murdered in cold blood on that day, including the first responders 
who gave their own lives trying to save them. We also reflected on the 
actions taken since 9/11, both at home and abroad, to prevent further 
attacks and to keep Americans safe from harm.
    Over the past five years, our nation has made substantial progress 
to protect the homeland against another terrorist attack, and we have 
done so in a way that respects the freedoms, liberties, and way of life 
cherished by all Americans.
    We have transformed how we screen visitors and cargo entering our 
country. We have boosted border security, adding more boots on the 
ground and new detection capabilities. We've protected critical 
infrastructure through new programs, partnerships, and cutting-edge 
technology. We've refashioned our intelligence community to ensure a 
two-way flow of information across all levels of government and the 
private sector. And we've strengthened emergency preparedness and 
response.
    For all of these reasons, our nation is safer today than prior to 
9/11. But we know that our work is not yet done. We must continue to 
identify and close security gaps. We must continue to manage risk and 
prioritize our resources according to threats, vulnerabilities, and 
consequences. We must expand partnerships across federal, state, 
tribal, and local governments, as well as the private sector and the 
international community. And we must continue to enhance protection 
without creating a fortress state, bankrupting our country, or 
destroying the systems we are trying to protect.

OVERVIEW OF PRIORITIES
    Our priority focus at the Department of Homeland Security remains 
preventing those events that pose the greatest potential consequences 
to human life and the functioning of our society and economy. At the 
top of that list is the threat of Weapons of Mass Destruction, which if 
used, would have shattering consequences. Preventing the introduction 
and use of such weapons requires our priority attention and constant 
vigilance.
    In addition, we must continue to guard against infiltration by 
terrorists, including those with the capability and intent to cause 
significant harm to our country through multiple, high-consequence 
attacks on people and the economy.
    Finally, we must always be mindful of the potential for homegrown 
acts of terrorism, including individuals who sympathize with terrorist 
organizations or embrace violence as a means to promote their radical 
agenda.
    For this reason, we must not only work across federal, state and 
local government to prevent domestic terrorism, but we must build a new 
level of confidence and trust among the American Muslim community, who 
are critical partners in protecting our country.
    To address these and other threats, we will redouble our efforts 
over the next two years across five key areas: 1) screening people at 
our borders to prevent the entry of terrorists, criminals, and illegal 
aliens; 2) screening cargo to prevent the entry of Weapons of Mass 
Destruction; 3) protecting critical infrastructure, including 
transportation systems and chemical facilities; 4) boosting 
intelligence and information sharing to help prevent attacks; and 5) 
strengthening emergency preparedness and response so that if we do face 
an attack or major disaster, our nation can respond quickly and 
effectively.
    In addition, we will also continue to strengthen our own 
Departmental management, hiring, and contracting practices so that we 
can continue to attract talented senior-level leadership, meet our 
workforce needs, and ensure that contracts are awarded based upon our 
desired goals, including those for small and minority business 
participation.

1. Screening People at the Border
    First let me discuss screening people at the border. Our perimeter 
defense depends on keeping dangerous enemies out. Since 9/11, we have 
made substantial progress to strengthen screening capabilities at our 
ports of entry and boost our physical and technological presence 
between the ports of entry.

Ports of Entry
    At ports of entry, we have integrated counter-terror fingerprint 
databases. Working with the State Department, we have dramatically 
enhanced the information available to visa adjudicators and created 
better links between visa and port of entry processes.
    As important, we have implemented US-VISIT biometric entry 
capabilities at 117 airports, 16 seaports, and 153 U.S. land ports of 
entry. Within seconds, we can now positively confirm a visitor's 
identity by matching the visitor's two digital finger scans captured at 
the time of visa adjudication against those collected in our databases, 
and screening them against terrorist and criminal watch lists.
    To date, US-VISIT has facilitated entry of more than 64 million 
travelers and prevented more than 1,300 criminals and immigration 
violators from entering through our ports of entry. US-VISIT also has 
provided the State Department with vital information for identifying 
ineligibilities for denying visas to an additional 1,000 ineligible 
applicants. In addition, we continue to explore departure confirmation 
alternatives at airports, seaports, and land border ports of entry 
around the United States as we move toward fulfilling our vision for an 
automated entry-exit system under US-VISIT.
    We've also strengthened oversight and coordination of our screening 
efforts across the Department through our Screening Coordination 
Office. This office, led by a senior member of the Department's 
original leadership team, will integrate the mechanisms through which 
the Department conducts terrorist and immigration-related screening, 
create unified standards and policies, and develop a single redress 
process for travelers.

Advance Passenger Information
    So what are our key priorities for screening people over the next 
two years? First, as the recent London airline threat emphasized, we 
need to be able to determine as early as possible who is trying to come 
into this country from overseas, and who is trying to get on an 
airplane that might do us harm. Under our current arrangement, we vet 
international air traveler information a full fifteen minutes after a 
plane departs for the United States. That is simply too late.
    Our goal is to implement a system that requires airlines to 
transmit passenger information well in advance of departure. This will 
give us the necessary time to check passenger names and coordinate with 
airlines and foreign law enforcement to interdict a suspicious person 
at the departure airport or prevent that person from boarding a plane 
bound for the U.S.
    Apart from known terrorist threats, we also need to be able to 
identify unknown terrorist threats--that is, people who don't appear on 
any watch list or in criminal databases. One of our most valuable tools 
to do this is actually at our fingertips--the Passenger Name Record 
(PNR) data routinely collected by the travel industry when an 
international traveler makes an airline reservation or purchases an 
airline ticket.
    Over the coming months, I look forward to working with the European 
Union to examine options to share PNR data among law enforcement 
agencies while ensuring adherence to appropriate privacy safeguards.

Secure Documents
    A second area where we must accelerate efforts is the development 
of secure travel and identification documents. We must develop 
standard, secure credentials that give us a high degree of confidence 
that an individual is not using false or stolen documents to enter our 
country or access our transportation systems or sensitive critical 
infrastructure.
    A number of initiatives now underway will allow us to do this. 
Under the Western Hemisphere Travel Initiative, we are working with the 
State Department as they develop a secure alternative format passport 
for individuals traveling between the United States, and Canada and 
Mexico. The card will be a secure, fully vetted, wallet-sized passport 
serving as evidence of citizenship and identification, which will allow 
real-time security checks at land border crossings and certain water 
border crossings.
    We are also working with states to develop standards for secure 
driver's licenses under the REAL ID Act. Driver's licenses are one of 
the most common forms of identification used in our country. We must 
have clear guidelines for how these documents are produced, who gets 
them, and what security features they must contain.
    To protect transportation assets, including our nation's ports, we 
are also moving forward with the Transportation Worker Identification 
Credential. This credential will help ensure that our nation's port 
workers have undergone the appropriate background checks, are 
authorized to work in our country, and do not pose a security risk. We 
expect to begin issuing cards by the end of the year, with a phased 
expansion in years to come.
    Five years after 9/11, however, some are beginning to complain that 
these measures are not necessary or that they will cost too much. I 
disagree. They are as necessary now as they were five years ago. Of 
course, we must implement secure document requirements as efficiently 
and economically as possible. We must also continue to work with our 
international partners and allies to develop appropriate standards for 
secure documents and to share information and intelligence, including 
information on lost and stolen passports.
    But at the end of the day, we must have the will to implement these 
measures if we are going to heed the lessons of 9/11 and reduce the 
risks for the future. Documents such as these will not only increase 
security, but ultimately speed processing for travelers.

Fingerprint Collection
    We also need to make sure we are able to exploit combined law 
enforcement fingerprint databases to our greatest advantage. Critical 
to this is moving from a two fingerprint collection system to a 10 
fingerprint system for visitors to the United States. Taking all 10 
fingerprints from travelers will allow us to do a more comprehensive 
identification check and a more thorough search of existing criminal 
databases.
    The State Department will deploy new 10-print devices at U.S. visa-
issuing posts overseas. We will also begin deployment of these same 
devices to our border ports of entry to electronically collect 10 flat 
fingerprints.
    Border Security
    Of course, we also have made tremendous progress to secure the 
thousands of miles of border between our official ports of entry. This 
includes giving the men and women who patrol both our Northern and 
Southern land borders the tools, technology, and resources they need 
for this difficult, often dangerous job.

Border Patrol
    Before 9/11, our nation had 9,000 Border Patrol agents along our 
Southern and Northern Border. Under the President's leadership, today 
we have more than 12,000 Border Patrol agents, and by the end of 
calendar year 2008, we will have more than 18,000 agents--effectively 
doubling the size of the Border Patrol.
    Since 9/11, the Border Patrol has apprehended and sent home some 
six million illegal migrants attempting to cross our borders. Of 
course, we know the vast majority of these individuals are entering our 
country for economic reasons. But if we can continue to control our 
border in a comprehensive, intelligent fashion, we will raise the 
barrier against those who would come into our country to do us harm.

Catch and Remove
    Before 9/11, we did not have adequate bed space to hold those we 
detained from countries other than Mexico. Too often these individuals 
would be given an order to appear in court, and then they would 
disappear.
    Today, by expanding bed space and decreasing processing times, we 
have essentially ended this practice of ``catch and release'' at our 
Southern border. Now, virtually all illegal migrants caught at the 
border are subject to ``catch and remove.'' This is a major milestone 
for our border security efforts and meets the goal I outlined last year 
to end catch and release.
    Moreover, ending catch and release is having a clear deterrent 
effect on those who would consider crossing our borders illegally. For 
the first time, we are now seeing a decline in the number of non-
Mexican migrants attempting to cross the southern border. The message 
has gotten out: if you are apprehended illegally entering our country, 
you will be sent home.
    Under the Secure Border Initiative, we are also substantially 
implementing new technology, staff, and tactical infrastructure at the 
border. In fact, last week we announced a major contract award for the 
deployment of SBInet, which is our integrated system of cameras, 
sensors, and other surveillance tools that will enable us to build a 
21st century ``virtual fence'' across our border. SBInet will 
intelligently leverage existing assets and lessons learned, combining 
the best thinking, best technologies and best practices available to 
mount a comprehensive response to securing our nation's borders.

Operation Jump Start
    To support this comprehensive approach, the President launched 
Operation Jump Start in June of this year along with state governors to 
provide up to 6,000 National Guard forces to support Border Patrol 
efforts along our Southern Border. This partnership has produced 
immediate and substantial results.
    National Guard troops are providing surveillance support, operating 
detection systems, and working in entry identification teams at the 
border. These added eyes and ears are helping Border Patrol agents on 
the frontline more effectively detect and respond to illegal entry.
    National Guard members are also providing information analysis, 
communications and administrative support. This is permitting Border 
Patrol agents to focus their efforts where they are needed most--on 
detecting and apprehending illegal aliens and protecting our borders 
against all threats. National Guard engineering units are also 
enhancing tactical infrastructure at the border, further accelerating 
an important element within the Secure Border Initiative.
    The results of this combined effort have been significant. Working 
as one team, the National Guard has supported the Border Patrol in 
apprehending more than 11,000 illegal aliens and seizing more than 
38,000 pounds of marijuana, 1,800 pounds of cocaine, and $11,000 in 
currency. This is a major contribution to keeping our border secure and 
our communities safe.
    The National Guard presence also has permitted nearly 400 Border 
Patrol Agents to move from ``back offices,'' where they were performing 
essential support functions and logistics jobs, to the ``front lines.'' 
These Agents are now working every day on the border to detect and 
apprehend illegal aliens, and seize narcotics and other contraband.
    The Guard will continue to assist these efforts as we train and 
hire the new Border Patrol agents called for under the President's 
plan. This fiscal year, we have hired more than 1,600 agents and more 
than 600 have graduated from the Border Patrol Academy. The additional 
force multiplier provided by the National Guard will allow us to 
continue to recruit, hire, and train additional agents while we protect 
the border.

Injunction Reform
    Despite this clear progress, we still have much work to do to 
secure our borders. One area in particular where Congress can be of 
immediate assistance would be to pass legislation that would end 
longstanding injunctions that hinder our ability to quickly remove 
certain groups of illegal migrants from our country.
    One case in particular, the Orantes Injunction, dates back more 
than two decades, to a time when El Salvador was experiencing a civil 
war. The war has long ended, but the injunction remains, preventing the 
Department from using all the tools at our disposal to remove illegal 
aliens from El Salvador, who now represent the largest group of non-
Mexican illegal aliens crossing our borders.
    I ask Congress to pass injunction reform so that we can apply 
expedited removal to these individuals, whose continued presence puts a 
strain on our detention facilities at a tremendous cost to taxpayers, 
and will make it difficult for us to sustain the success of our catch 
and remove policy in the future.

Social Security No-Match Data
    In addition, to support our interior enforcement efforts, I appeal 
to Congress to pass legislation that would give our Immigration and 
Customs Enforcement (ICE) agents greater access to Social Security no-
match information.
    Greater access to no-match data would provide important direction 
to ICE investigators to target their enforcement actions toward those 
employers who have a disproportionate number of these no-matches, who 
have reported earnings for multiple employees on the same number, and 
who are therefore more likely to be engaging in unlawful behavior.

2. Screening Cargo and Preventing WMD
    Let me now talk about what we've done since 9/11 to monitor the 
cargo entering our nation and prevent the entry of Weapons of Mass 
Destruction--and what we want to achieve in the future.
    Before 9/11, we screened very few cargo containers entering our 
ports or crossing our borders for terrorist weapons. We did not have 
the ability to examine that cargo overseas before it left a foreign 
port for the United States. Nor did we have adequate automated scanning 
for radiation, next generation detection technology, or a formal 
partnership with the private sector to increase security in privately 
owned supply chain operations.
    Today, all of this has changed. Through our National Targeting 
Center, every shipping container entering the United States is assessed 
for risk, and high-risk containers are inspected. Moreover, under the 
Container Security Initiative, U.S. inspectors stationed at 44 overseas 
ports now screen nearly 80 percent of the cargo bound for the United 
States before it reaches our shores. By the end of this calendar year, 
those inspectors will screen cargo at 50 foreign ports covering 
approximately 82 percent of the containerized cargo destined for the 
U.S.
    In addition, we have deployed hundreds of Radiation Portal Monitors 
and thousands of hand-held radiation detection devices domestically to 
protect against radiological and nuclear threats. As a result of these 
capabilities, we will screen nearly 80 percent of maritime container 
cargo arriving at U.S. ports for radiation by the end of this year. 
Finally, almost 6,000 companies have joined our Customs Trade 
Partnership Against Terrorism to voluntarily take steps to enhance 
security in their supply chain operations.
    In all, the federal government has dedicated nearly $10 billion to 
port security since 2004, including the efforts of the Coast Guard, 
Customs and Border Protection, the research and development efforts of 
our Domestic Nuclear Detection Office, and the Department of Energy. 
These actions have not only increased security, but they support the 
free flow of commerce and trade essential to our economy.

Biological Countermeasures
    Since 9/11, we also have significantly strengthened the nation's 
defenses against biological threats by developing and deploying a 
network of biological sensors; establishing new facilities to monitor, 
test and detect potential biological threats; and utilizing new risk 
assessment tools to inform investments and potential threats.
    In partnership with the Environmental Protection Agency (EPA) and 
the Department of Health and Human Services (HHS), we have deployed the 
first ever bioaerosol monitoring system to more than 30 major 
metropolitan areas in order to provide early warning of an attack and 
enable quick and accurate response. The BioWatch system is currently 
undergoing expansion in the top threat cities to enable detection of 
smaller amounts of bio-agents, better define the affected areas in the 
event of a release, and provide increased coverage of critical 
facilities such as transportation networks.
    We also have established the National Biosurveillance Integration 
System to provide early recognition of biological events such as human 
or animal disease outbreaks. And in partnership with the Federal Bureau 
of Investigation, we have established the National BioForensics 
Analysis Center to conduct and facilitate forensic analysis and 
interpretation of materials recovered following a biological attack.

Radiological Screening
    These are major advances in protecting our nation against Weapons 
of Mass Destruction. But in the future, we must continue to develop and 
deploy systems to prevent and detect nuclear or radiological attacks in 
the United States. To accomplish this goal, we will do a number of 
things.
    First, we will complete the deployment of Radiation Portal Monitors 
to all of our southern and major northern land border crossings and to 
every major seaport by the end of next year. Once these systems are in 
place, we will be able to screen approximately 98 percent of inbound 
cargo for radiation.
    We will also make substantial investments in next generation 
nuclear and radiological detection technology, including $1.15 billion 
for the Advanced Spectroscopic Portal (ASP) program and $1.35 billion 
for the Cargo Advanced Automated Radiography System (CAARS).
    These systems will harness cutting-edge technology to enhance 
detection of nuclear and radiological threats at ports of entry, 
including the presence of shielding that could be used to hide special 
nuclear material. Making these investments also will improve our 
ability to scan greater amounts of cargo in a timely manner, 
facilitating the trade and commerce vital to our economy.

Secure Freight
    To expand protection of cargo moving throughout the global supply 
chain, we are also increasing the extent and depth of information and 
data we will be able to use to draw a more detailed picture of the 
movement of a container as it travels through the supply chain.
    Implementing this Secure Freight program over the next two years 
will require considerable work with our interagency and overseas 
partners, and international organizations. We look forward to working 
at home and overseas to implement this new vision for cargo security.

Securing the Cities
    Finally, by the end of 2008, we will complete the first phase of a 
``Securing the Cities'' program in New York City to conduct nuclear and 
radiological scanning on the principal pathways into the city--over 
land, over water, and underground. In addition, we anticipate two 
additional cities will be part of the ``Securing the Cities'' program. 
And we will conduct radiological and nuclear preventive training for 
300 state and local officials this fiscal year and quadruple that 
number by the end of next year.

3. Infrastructure Protection
    Let me turn now to infrastructure protection. One major area of 
focus for the Department has been protecting our nation's critical 
infrastructure, including transportation systems according to risk and 
in partnership with state and local governments and the private sector.

Transportation
    Before 9/11, our aviation system did not have secure cockpit doors. 
We did not have a federalized screener workforce trained to detect bomb 
components and detonation devices. We did not have thousands of Federal 
Air Marshals aboard aircraft, protecting travelers every day all over 
the world. We did not have armed pilots authorized to defend the 
cockpit. We did not have 100 percent screening of all passenger 
baggage. Nor did we have thousands of Explosive Detection System 
machines scanning passengers and baggage at airports nationwide.
    Today, more than a dozen layers of security are now in place and 
create a protective fabric of security that keeps hundreds of thousands 
of air travelers safe and secure every day. This includes more than 
45,000 highly-trained Transportation Security Officers that screen 
passengers and baggage every day at airports across the country. It 
includes the Screening Passengers by Observation Technique, or SPOT, 
program, which trains TSA officers to look for suspicious behavior 
exhibited by passengers at checkpoints--including involuntary physical 
or psychological reactions that a person may have when questioned.
    We have substantially expanded the ranks of our Federal Air Marshal 
Service. Before 9/11, only a few dozen air marshals patrolled our 
skies. Today, thousands of air marshals guard flights every day across 
our country and all over the world. These highly-trained law 
enforcement professionals not only provide daily coverage for 
commercial aviation, but they have given our Department an important 
surge capability during high-threat periods and major disasters or 
incidents. During the recent London aviation threat, Federal Air 
Marshals provided expanded coverage on international flights from the 
United Kingdom. They also assisted with the evacuations from Lebanon 
and Cyprus earlier this summer.
    Of course, we also have taken steps to enhance security for air 
cargo aboard commercial aircraft. Since 9/11, we have added hundreds of 
air cargo inspectors, strengthened our regulatory oversight and freight 
forwarder certification programs, developed a known shipper database 
for hundreds of thousands of trusted shippers, invested in research and 
development for new explosives screening technology, and added new 
canine explosive inspection teams.
    To further strengthen these efforts, the Transportation Security 
Administration will soon begin to enforce extensive new air cargo 
regulations that will require background checks on an additional 
100,000 employees across the air cargo supply chain, new federal 
standards for companies that handle air cargo, and extended security 
zones for air cargo operations at airports. In addition, we recently 
implemented a security directive that requires that all air cargo 
brought to airline counters by individuals must undergo screening.
    Of course, our efforts are not confined to aviation. In the rail 
and mass transit sectors, we've invested in new technology, rider 
education and awareness programs, sensors and video cameras, and law 
enforcement surge capabilities, including canine and multi-agency law 
enforcement teams that can quickly deploy in response to threats.

Additional Infrastructure
Since 9/11, we also have performed thousands of vulnerability 
assessments and reviewed thousands of security plans for privately 
owned infrastructure across the country--including transportation 
assets, seaports, and chemical facilities. The Coast Guard alone has 
reviewed and approved 3,200 facility security plans and 6,200 vessel 
security plans under the Maritime Transportation Security Act.
    We also have established new information-sharing portals with the 
private sector to warn of threats and to recommend protective measures. 
And to coordinate protection of our nation's cyber security and 
telecommunications systems, we recently appointed the Department's 
first Assistant Secretary for Cyber Security and Telecommunications, 
who will work with the private sector to increase protection and 
resiliency of this vital infrastructure.
    In all, since 2002, we have provided more than a billion dollars in 
risk-based grants specifically for the protection of our nation's 
critical infrastructure. This past June, we also finalized the National 
Infrastructure Protection Plan, our over-arching playbook for 
protecting our nation's critical infrastructure.

Chemical Security
    Of course, we know that the vast majority of critical 
infrastructure in our country is owned and maintained by the private 
sector. The government alone cannot protect these critical assets and 
key resources. Only by working together can we enhance protection.
    One area where we continue to face a challenge is in developing a 
risk-based regulatory structure for our nation's chemical plants and 
facilities.
    Since 9/11, most chemical companies have been good corporate 
citizens--voluntarily taking steps to improve security in their 
operations and facilities. But not all companies have increased 
security to an appropriate level--and those companies put everyone else 
at risk.
    We must develop a balanced, common-sense approach for protecting 
chemical facilities across our country--and their surrounding 
communities--without destroying the businesses we are trying to 
protect.
    But we cannot do so unless our Department has the authority to set 
standards, develop a risk-based approach for different kinds of 
facilities, validate security measures, and insist on compliance.
    That is why today I want to urge Congress to pass chemical security 
legislation that will allow us to work with industry partners to 
develop a clear way forward that includes creating a tiered structure 
for assessing risk and an effective program to ensure compliance.

4. Intelligence
    As we know, the best way to protect against a terrorist attack is 
to prevent it from happening--and intelligence is our most effective 
means of defeating terrorist plots before they become operational.
    We need look no further than last month's plot in the United 
Kingdom to recognize the importance of sharing timely, actionable 
intelligence, both domestically and with our international partners. 
Numerous intelligence components and law enforcement agencies worked 
together to break apart the London plot and to take the steps necessary 
to protect the American public. There was unprecedented cooperation 
between the United States, the United Kingdom, and Pakistani officials. 
This cooperation and trust allowed us to be nimble, fast, and flexible, 
and within a matter of hours, heighten our security procedures at our 
airports, including the current restrictions on liquids and gels in 
carry on baggage.
    Above all, the London plot reminds us that we cannot wait for the 
fuse to be lit before we take action to disrupt a terrorist plot. When 
we have credible information, we will act decisively to reduce the risk 
to American citizens.
    Since 9/11, our nation has integrated intelligence collection and 
analysis across all the elements of the intelligence community under 
the Director of National Intelligence, and our Federal wide terrorism 
information sharing efforts are being coordinated by the Program 
Manager for Information Sharing Environment.
    At the Department of Homeland Security, we have strengthened and 
unified our intelligence operation and hired a veteran intelligence 
official to lead it. And through our Homeland Security Information 
Network, thousands of state and local participants share information 
every day on threats and incidents within their communities.

Fusion Centers
    In the future, we intend to expand these valuable partnerships even 
further by increasing federal participation in state and local fusion 
centers across our country as part of an interagency effort to better 
share intelligence with state and local governments.
    DHS is part of a Presidentially-directed interagency effort to 
incorporate state and major urban area fusion centers into the 
Information Sharing Environment. DHS intelligence personnel already 
work side-by-side with their federal, state and local counterparts at 
fusion centers in New York, California, Georgia, Louisiana, and 
Maryland. Our goal is a two-way flow, with every level of government 
pooling intelligence.
    By the end of 2008, working with our other federal partners, our 
goal is to have intelligence and operations professionals at every 
state and major metropolitan fusion center in the United States, 
sitting in the same room, sharing and analyzing information and 
intelligence in real time.

Intelligence Campaign Plan
    In addition, we have initiated an Intelligence Campaign Plan for 
Border Security (ICP) to provide comprehensive and coordinated 
intelligence support for the full spectrum of the Department's border 
security operations. The ICP will link DHS intelligence resources, and 
those of state and local partners, with the Intelligence Community, in 
order to deliver actionable intelligence to front-line operators and to 
fuse national intelligence with law enforcement information.
    As part of the ICP, we are developing and implementing, in 
partnership with the Director of National Intelligence, a robust 
strategy for collection and analysis of border security intelligence to 
support our operational missions. Our strategic intelligence analysis, 
conducted under the ICP, will assist policymakers in making key 
decisions on the best ways to secure the border.

5. Preparedness/Response
    Some threats, however, we will not be able to prevent--specifically 
those created by Mother Nature. As an all-hazards Department, we must 
be prepared to respond to acts of terrorism as well as acts of nature, 
including acts of such catastrophic proportion that federal 
intervention is required before, during, and after the storm or event.
    Since 9/11, we have re-tooled and re-fashioned the Federal 
Emergency Management Agency, giving this vital agency new and 
experienced leadership, enhanced, real-time tracking capabilities for 
emergency supplies, and robust emergency communications systems. We 
have pre-designated and pre-positioned Federal leadership in hurricane 
zones to work together with state and local officials, and we have 
forged a stronger partnership with the Department of Defense to ensure 
joint training and operations.
    To respond to no-notice or short notice events, our operational 
agencies--including the Coast Guard, Transportation Security 
Administration and its Federal Air Marshal Service, Immigration and 
Customs Enforcement, Customs and Border Protection, and the Secret 
Service--have created, or are now creating, ``adaptive force 
structures'' that will rapidly deploy to an incident or disaster zone 
to provide an immediate surge capability and greater unity of effort.
    The emergency management community now operates under a new, 
comprehensive National Response Plan and a National Incident Management 
System. And we have created new preparedness tools for individuals and 
businesses under the Ready campaign and new community-based training 
programs under Citizen Corps.

Interoperable Communications
    But despite this progress, we still have more to do to fully 
realize the potential of our Department to integrate the full range of 
national capabilities. And one area in particular that requires 
continued action and attention across all levels of government is 
interoperable communications.
    On 9/11, hundreds of first responders couldn't communicate with 
each other because their radios were incompatible. This not only slowed 
the response and increased confusion, but it cost lives. As a nation, 
we simply can't let that happen again.
    Today, we have achieved interoperability at the command level in 10 
of the highest-threat urban areas through our RapidCom program. 
Achieving interoperability continues to be one of seven National 
Priorities under the Interim National Preparedness Goal. As a result, 
state and local governments, and first responders, have spent about 
$2.1 billion of Federal grant assistance since 2003 for interoperable 
communications equipment, planning, training, and exercises.
    In addition, we completed a National Interoperability Baseline 
Survey to assess the capacity for communications interoperability among 
law enforcement, fire, and emergency medical service first responders 
in all 50 states and D.C. But more needs to be done.
    By the end of this year, we will have a clear plan in place for 
completing command-level interoperability among police, firefighters, 
and emergency medical service providers in each of the states and at 
least 75 urban areas.
    Of course, we can only do so much at the Federal level to resolve 
differences at the state and local level. We can develop standard 
operating procedures, recommend technology, and lead training and 
exercises, but local governments ultimately use the equipment and 
execute their plans.
    In the coming months, we will turn to our state and local partners 
for guidance, for answers, and ultimately, for results.

6. Management
    Finally, let me say something about the men and women at the 
Department of Homeland Security who undertake this important work every 
day on behalf of their fellow citizens. These remarkable individuals 
serve the American people day and night, monitoring our ports, our 
skies, and our borders. They have difficult, challenging jobs, which 
they conduct with vigilance, urgency and a sense of common purpose.
    These men and women deserve the tools, the resources, and, most 
important, the leadership and guidance to succeed in their important 
tasks. That is why a top priority for the Department continues to be 
filling vacancies at the top levels of our organizational chart and 
ensuring we have a diverse, well-trained workforce.

Hiring and Recruiting
    Over the past year, we have filled several key leadership positions 
across the Department, including a new Director of FEMA and a new FEMA 
management team with more than 100 combined years of disaster 
management experience.
    In the past weeks, we have hired the first Assistant Secretary for 
Cyber Security and Telecommunications. We have hired a new Director for 
the Screening Coordination Office. We have filled the Chief Financial 
Officer position. This month, we also announced a new Chief Human 
Capital Officer, Marta Perez. In addition, we have filled newly created 
positions of Assistant Secretary for Policy Development and Senior 
Advisor for Weapons of Mass Destruction Intelligence.
    Of course, we also want to continue to recruit a first-class 
homeland security workforce, including minorities, and students from 
Historically Black Colleges and Universities (HBCUs). Several of the 
Department's component agencies have active minority recruitment 
programs, including the Coast Guard, Secret Service, Customs and Border 
Protection, and the Transportation Security Administration, among 
others.
    In addition, our Science and Technology Directorate's University 
Centers of Excellence program is partnering with three HBCUs to conduct 
vital homeland security-related research and to educate the next 
generation of homeland security experts and scholars.
    As part of this effort, the Science and Technology directorate 
expects to make available up to $1.3 million in Research and 
Development grants to seven HBCUs in fiscal year 2007. The Directorate 
also expects to provide more than $133,000 in tuition assistance, 
scholarships, and other aid to seven HBCUs and to continue to recruit 
students for positions across the Department, including Headquarters.

Small Business Contracting
    Since our inception, we have made a commitment to provide 
opportunities for small businesses to participate in our procurement 
program, including those small businesses owned by minorities, women, 
service disabled veterans, veterans, and those located in economically 
distressed areas. Small businesses in a wide variety of industries have 
helped us to meet our mission through their dedicated and customer-
focused contract work.
    From Fiscal Year 2003 to 2005, the Department awarded over 30 
percent of our prime contracts to small businesses, exceeding the 
government-wide standard of 23 percent. We also awarded over seven 
percent of our prime contracts to small minority-owned businesses, 
exceeding the government-wide standard of five percent, and we are on 
track to meet or exceed these targets in fiscal year 2006.

CONCLUSION
    Over the past three years, we have built a department whose mission 
is to work on behalf of the American people to prevent, protect 
against, and respond to threats to our homeland. For the 185,000 men 
and women of DHS, this is a mission we are proud to undertake every 
day--at our borders, across our skies, and over land and sea.
    The steps we have taken since 9/11 have made our nation safer, they 
have made our nation stronger, and they have made our nation more 
resilient--economically resilient and resilient in spirit. Over the 
next two years, we will continue to focus our energy and our resources 
on building a foundation of security for our country that addresses our 
immediate priorities and achieves our long term goal of creating a 
Department that is sustainable in the future.
    I appreciate the support of this Committee and all Members of 
Congress as we continue to build and refine our capabilities and as we 
continue to protect our nation in the months and years to come.

    Mr. King. Thank you, Secretary Chertoff. Again, thank you 
for your testimony.
    I will focus on one issue, and that was the question that 
you and I had severe questions about, the funding formula which 
directly impacted New York City, Washington, D.C., among 
others.
    And, by the way, let me preface this by stressing the fact 
that the transit security funding did go up by 26 percent and 
the port security funding has gone up by 400 percent. So I want 
all of this to be in context.
    But having said that, as we go forward to the analysis for 
next year's grants, especially on UASI, how is the peer review 
panel going to be part of that process? Do you intend to make 
any changes with the peer review panel, either as to membership 
or as to procedures or as to the formulations that they base 
their determinations on?
    Secretary Chertoff. Well, Mr. Chairman, let me say, first 
of all, we are absolutely committed to a risk-based formula. 
And that means we are going to begin by tiering the cities 
based on risk.
    And it is not a surprise that the highest-tier risk cities 
include cities like the New York metropolitan area, including 
northern New Jersey; Los Angeles; the national capital region, 
Washington; and Chicago. And so, we are going to anticipate or 
presume that a significant portion of the resources will be 
applied to those cities. And this past year it was close to 50 
percent.
    Second, to the extent, of course, that we are funding 
multiyear programs, obviously sometimes there is going to be a 
certain unevenness. Because if you have a program that is going 
to take 2 or 3 years to fund, and we give you the money in year 
1, we are not going to be giving you the full amount in year 2 
and year 3 as well. So there will be a certain amount of 
unevenness depending on the nature of the programs.
    But the third thing which I do think I want to focus on a 
little bit is the issue of how we work with communities, in 
terms of what their specific proposals are. And I think, 
looking back, that is an area where we do have some room for 
improvement.
    The first thing we are going to do is we are going to get 
the grant guidance and the general allocations out in the first 
quarter of this fiscal year. What that is going to do is it is 
going to give us much more time to work with communities to 
help them tailor their proposals in a way that maximizes the 
amount of money that they are eligible to get under the 
program.
    I think one of the deficiencies that I have observed, 
looking back over the last several years and in talking to 
community leaders from a number of cities, is that, by having 
the process be fairly late in the fiscal year cycle, a lot of 
communities submitted a proposal and it was kind of like a 
pass/fail test. And if there were portions of the proposal that 
were not good, it tended to sink the entire proposal. And I 
think that is probably not the best way for us to handle this.
    By doing it earlier, we will have at least one round of 
being able to have a back-and-forth, interactive discussion 
with communities, and if there are some elements that we don't 
think are particularly useful, they can change those elements. 
And that, I think, is going to help us avoid a situation where 
people feel that their needs are not adequately being taken 
care of.
    Mr. King. The gentleman from Mississippi?
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Secretary, thank you for your testimony before the 
committee.
    You talked about GAO being wrong, with respect to the 
catastrophic planning supplement. Can you tell this committee 
when the supplement was circulated to all the other federal 
agencies?
    Secretary Chertoff. I know I signed it over the summer, and 
I think it was given a limited circulation. I can't tell you 
exactly which agencies get the circulation and when they got 
it. But it was approved and signed, and certainly within DHS it 
was in effect at some point over the summer. I can get you the 
date we signed it.
    Mr. Thompson. Well, if you would, please provide the 
committee with when you signed it, how many other federal 
agencies have signed it, and when it was circulated.
    Secretary Chertoff. We will do that.
    Mr. Thompson. Thank you.
    In addition to that, I referenced that one of the constant 
criticisms we hear is that there are so many vacancies in DHS 
in critical positions. We have so many acting directors. And 
part of my testimony will say that we could actually start an 
actors guild in DHS because of that.
    How do you propose to correct the vast number of vacancies 
in critical positions that continue to exist within DHS?
    Secretary Chertoff. Well, first of all, nobody wants to 
fill positions permanently more than I do, because it takes 
some of the burden off of my shoulders. I am pleased to say we 
have actually made a lot of progress in that over the last 
several months.
    I know there is a vacancy in the undersecretary for 
management. I am hoping that we will have a nominee shortly. 
That is in process. We recently filled the cybersecurity spot, 
the assistant secretary for cybersecurity. I think virtually 
all, if not all, of the senior-level positions at FEMA, which 
were filled with actings, are now filled with permanent people.
    So I think we are well on the way to filling all of those 
spots.
    It is no secret that it is a challenge, particularly with 
Senate-confirmed appointees, because there are people who find 
the process of getting background-checked and getting confirmed 
to be time-consuming and arduous. And that does, regrettably, 
deter some people from applying. And it is not an original 
thought with me.
    But I am confident that we have in place now and will 
shortly have a fully loaded complement of C.U. managers in 
which I have a great deal of personal confidence.
    Mr. Thompson. So, without giving us a timetable, you assume 
that you will have all the vacancies filled.
    Secretary Chertoff. Yes. I mean, I think the last major PAS 
to be filled, I believe, is the undersecretary for management, 
and I am hoping that that nomination will be going up in the 
very near future. And then, of course, it is the Senate that 
has to do the confirmation.
    Mr. Thompson. Several times we have had someone from FEMA 
before us, and we have been told that, before June 1, FEMA 
would be at a full complement. I am told today that we still 
have not hired all of the people necessary in FEMA, even though 
we are in the hurricane season right now.
    Can you tell me what the problem is and why we can't hire 
the necessary people that we need to work in FEMA?
    Secretary Chertoff. Well, we have done quite a bit of 
hiring. And that includes not only the permanent employees, but 
the disaster assistance personnel and other personnel to do 
some of the ongoing recovery work in the Gulf. But I will agree 
with you that we have not succeeded in fully staffing all of 
the positions at FEMA.
    Frankly, a lot of that is because we have had a certain 
amount of outflow. This has been a very difficult past couple 
of years for FEMA. There are a lot of people who are burned out 
and are tired and, frankly, had a very trying year last year.
    I know Director Paulison has made hiring qualified 
employees a very important element of his strategy for 
retooling FEMA. So, while we are hiring very rapidly, we do 
have to exceed the outflow by a significant margin in order to 
get to where we have to get. And I think we have made a lot of 
progress, but I would certainly be happier if we were full, and 
we are not full yet.
    Mr. Thompson. I yield back.
    Mr. King. The gentleman from Indiana is recognized for 5 
minutes.
    Mr. Souder. Thank you.
    I want to say at the opening that I appreciate the steady 
progress on all the different elements in a very complex 
question, whether it is ports, airports, border, IDs. But until 
we know that our border is more secure, until we know our IDs 
are more secure, until we know who is here, it is difficult to 
see how we are going to be safe. It has just become so 
intelligence-dependent that we run higher risks. And I hope we 
continue to move on the fence, continue to move on the ID.
    But I have a very particularized question. As you know, I 
work with and chair the Narcotics Subcommittee and the 
Speaker's Drug Task Force. There has been a lot of question 
about where the narcotics mission fits in Homeland Security, 
because you have most of the agents at the border, the ISE 
agents, the Coast Guard. And I know that you continue to make 
busts and arrests.
    But the question is, based on some concern over documents 
that were submitted this year, do you feel that the narcotics 
mission is part of the counterterrorism mission?
    This has been a problem in Colombia, and it took a long 
time to sort that out. We are going through this right now in 
Afghanistan. People who smuggle smuggle. People who smuggle 
drugs smuggle other things and people. Plus, we had 20,000 
people a year die of narcoterrorism in the United States. As we 
have cracked down on meth at the state and federal level, we 
have seen a surge in meth coming across the southern border.
    How do you see the narcotics mission inside the homeland 
security mission?
    Secretary Chertoff. Well, I agree with you, I think it is 
an indispensable part of the mission.
    I think, first of all, criminal organizations that smuggle 
drugs also smuggle illegal migrants in. And the drugs often 
fuel a lot of the activities that these criminal organizations 
undertake. So, as we crack down at the border, the very 
measures we are taking to crack down at the border will not 
only keep out migrants but will keep out drugs and other forms 
of contraband and dangerous activities.
    I also agree with you that you have to look at, 
increasingly in this world, narcotics as a money-making effort 
for some terrorist organizations. When I was head of the 
criminal division, we indicted a number of the senior leaders 
of FARC in Colombia for drug trafficking. And the allegations 
were they were actually involved in using the narcotics to fund 
the acquisition of weapons for terrorist activities.
    So increasingly, I think that we have to view narcotics as 
part of the terrorist arsenal, and we have to treat that as 
equally serious with other things that we are trying to keep 
out of the country.
    Mr. Souder. In the area of the border, we have seen 
progress, to some degree, in California, Arizona, some 
concentration now in New Mexico. But wherever we put fence, 
wherever we put more agents and Guard, the illegal migrations, 
whether it is contraband or people, move to the other areas.
    I see, both in the, kind of, west Texas area and parts of 
the open areas of Texas as being, kind of, the next frontier in 
this. Do you have any forward-looking plans in 2007 and 2008 
toward that border?
    Secretary Chertoff. The Border Patrol has mapped the entire 
border, and they look at the high-traffic areas. And as we 
deploy agents, the National Guard under Jump Start, technology 
under SInet, and fencing and other kinds of tactical 
infrastructure, we begin in those areas which are the highest-
traffic areas.
    We recognize that it is going to shift some percentage of 
the traffic. And we have a schedule to roll this out so that we 
continue to hit where the traffic moves. And we drive it, 
ultimately, into places that are less and less hospitable, and 
therefore fewer and fewer people will undertake to cross the 
border.
    So this one of the things the Border Patrol treats as a 
priority, on watching where the flow is and making sure we are 
constantly attending to the worst places, because that is 
ultimately the best strategy for controlling the whole border.
    Mr. Souder. Do you know if you have a plan for Neely's 
Crossing, where there is a gravel base there where they have a 
bulldozer on the Mexican side, but every time we do anything, 
we try to do it--and it is not part of our current fencing 
proposal, although I think Chairman Hunter is looking at that.
    Because I have talked to the Mexican ambassador. It seems 
to me cooperation would start with get rid of the bulldozer on 
the other side.
    Secretary Chertoff. Well, I have to confess, I am not 
personally familiar with the bulldozer. I do know the Border 
Patrol is constantly reviewing what is going on on the south 
side of the border, and we are also using intelligence.
    And we have been working and achieving progress with the 
Mexican government in coordinating joint law enforcement 
efforts on both sides of the border. And I know the Border 
Patrol chief, David Aguilar, has been dealing with his 
counterpart on those issues.
    I will look into that.
    Mr. Souder. I would appreciate that, because I was with the 
two sector chiefs, and the bulldozer started on the other side, 
and they said, ``We all need it to leave fast.'' It has been a 
continuing problem and needs to be addressed.
    Mr. Lungren. [Presiding.] Thank you. The gentleman's time 
has expired.
    Mr. DeFazio is recognized for 5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you again.
    You said radiation devices that cover 80 percent of cargo 
are in place. Now, that certainly--
    Secretary Chertoff. By the end of the year, will be in 
place.
    Mr. DeFazio. Does that mean we are actually screening 80 
percent, or in ports where 80 percent of the cargo moves there 
are radiation detection devices available?
    Secretary Chertoff. It means, by the end of the year, we 
will be screening 80 percent of the containers coming through 
our seaports through radiation portal monitors.
    Mr. DeFazio. Through radiation portal monitors.
    Secretary Chertoff. Correct.
    Mr. DeFazio. Okay. Not the little hand-held things that 
don't work.
    Secretary Chertoff. Correct.
    Mr. DeFazio. Okay. Eighty percent, that would be a big step 
forward.
    Under the current system, I am very concerned about C-TPAT. 
You know, we had the incident where there were, I believe, 22 
illegal Chinese in a container, well-equipped for living, who 
were smuggled into the U.S. And that came from a C-TPAT 
cooperator.
    You know, Ronald Reagan famously said, ``Trust, but 
verify.'' I would like to verify in ways that are more certain 
than a manifest. As I understand it, a manifest can actually be 
changed legally, under U.S. Customs law, up to 6 months after 
you have taken delivery of something.
    So how can we say, ``Oh, well, we have seen the manifest,'' 
a piece of paper, and that gives us some level of security and 
assurance of what is in that container?
    Secretary Chertoff. Well, we don't rely only on the 
manifest. The manifest is one element in a series of different 
items of information that allow us to target high-risk 
containers so we can actually have those inspected. That 
includes who the shipper is, method of payment, destination, 
what the track record is with respect to that particular 
shipper, other kinds of documents that are provided by the 
shipper.
    Mr. DeFazio. Right, I understand. But I am just saying, 
where I want to head here is, we had quite a discussion, this 
committee, about screening containers on the other side of the 
ocean.
    Your deputy, Mr. Jackson, was in, and he said it was the 
objective of this administration, within a short period of 
time, to be able to screen all containers before they leave 
U.S. ports, i.e., something goes to San Francisco before it 
heads to Sacramento or Las Vegas, we are going to screen it.
    And I said to him, ``Does that mean you might think there 
might be a threat in that container when it arrives?'' And he 
said, ``Well, obviously, or we wouldn't want to screen it.'' 
And you are telling me now we are going to screen them all once 
they have arrived.
    It seems to me, with a WMD, you would want to screen on the 
other side. Why has there been resistance, on the part of the 
administration and the majority here to screening all of the 
containers on the other side of the ocean?
    If we can put in place, by the end of this year, portals to 
screen everything coming into the U.S.--which, I will be 
stunned; I mean, I didn't know we were anywhere near that, but 
that will be great--why can't we do it on the other side of the 
ocean before they depart?
    Secretary Chertoff. Well, for one thing, I do want to say 
we are working and we are expecting to begin the process of 
doing screening, or scanning, overseas at ports of departure.
    But, for one thing, we don't own the foreign ports, 
Congressman.
    Mr. DeFazio. No, I--
    Secretary Chertoff. Foreign countries do. And--
    Mr. DeFazio. I understand that. Excuse me, sir, if you 
could. We retain the right of sovereignty in international 
trade, and we can refuse the entry of any cargo. The Chinese 
regularly do this for commercial purposes. We can sure as heck 
do it for homeland security purposes.
    Anybody who isn't cooperating with us, we say, ``Well, that 
is fine, but guess what? Nothing is leaving your port for the 
United States of America anymore.'' It is pretty simple.
    Secretary Chertoff. I guess that would put us in a position 
where, if, for all kinds of reasons, 75 percent of the ports in 
the world were not prepared in a short period of time to give 
us the ability to do this, we would be cutting off 75 percent 
of the international trade.
    Mr. DeFazio. Well, then, you know, we would start making 
things in America again. That would be a tragedy.
    But beyond that--
    Secretary Chertoff. If I could--
    Mr. DeFazio. No, let's go to the point here.
    Secretary Chertoff. If I could finish--
    Mr. DeFazio. The point is, if we don't push them, they are 
not going to do it. You are saying these containers might 
contain threats when they arrive here. If I know that my 
nuclear weapon is going to be found out at the U.S. port, I 
will just detonate it at the port. I won't get to my ultimate 
objective, but I will take out the port.
    Now, why aren't we pushing harder to screen everything 
overseas? We didn't say immediately; we said within 3 years. 
Now, certainly we can negotiate agreements to do it within 3 
years.
    Secretary Chertoff. Congressman, I don't accept the premise 
that we are not working hard to do this. Because, quite to the 
contrary, I went to Hong Kong--
    Mr. DeFazio. So if we said 3 years, would you accept that 
legislation? Would you?
    Secretary Chertoff. If I can finish the answer, I will tell 
you what my position is.
    We are working hard with partners overseas; I went to Hong 
Kong. But I am also mindful of the fact that there are several 
limitations in our ability to do this.
    First of all, some countries aren't physically configured 
to be able to do this scanning, because, among other things, 
they may have a lot of radiation in the ground where the port 
is, and that makes it difficult to use the scanners.
    Other countries don't have the manpower to work with us to 
do the inspections. Other countries may choose not to do so.
    To set an artificial deadline of 3 years would be as 
unrealistic as passing a law that says, ``In 3 years, cancer 
has to be cured.'' It is a wonderful aspiration, but it is not 
a realistic mandate.
    What is realistic is to produce action. So what we are 
doing is we are producing action. We are meeting with shippers, 
we are meeting with foreign governments. And this year we will 
be announcing the beginning of a program to do precisely what 
you want us to do, but I am not going to sell the American 
people pie in the sky. I am going to give them something that 
is realistic, actionable and produces real results.
    Mr. King. [Presiding.] The time of the gentleman has 
expired.
    The gentleman from California, Mr. Lungren, is recognized 
for 5 minutes.
    Mr. Lungren. Thank you, Mr. Chairman.
    Thank you very much, Mr. Secretary, for appearing before us 
and giving us a rundown of where we are right now.
    As was mentioned before, we have a responsibility to do 
oversight, and we have a responsibility to be critical, and we 
have been in the past.
    One of the areas that we have tried to encourage, both 
through legislation and through hearings, is the risk-based 
approach. And, at least from my standpoint, it appears that, 
under your leadership, the department has been following that.
    The other thing is, if you are going to be risk-based, you 
have to show the agility necessary to respond to new 
information and new risk. And in that regard, I commend TSA for 
doing that, with respect to looking at what the increasing or 
differing risks are in terms of aviation safety.
    In that regard, can you tell me, in light of the decision 
announced by TSA today in terms of what people can carry on 
their personal luggage as they get on the airplane, how long is 
that going to remain in place? Is that going to be something 
that we see for 6 weeks, 6 months, so that people who travel 
should be aware that things may change and how often they may 
change?
    Secretary Chertoff. I think the measures that were 
announced yesterday, which are to limit nonprescription items 
to three-ounce containers that fit within a one-quart plastic 
bag, are likely to be with us for the foreseeable future. I 
don't anticipate them changing within 6 weeks.
    Six months, of course, is a longer period of time. But I 
think we have settled on a size that we are very comfortable 
with from a safety and security standpoint and also confronts 
the limitations of the existing technology, in terms of 
actually screening liquids.
    Mr. Lungren. Last week, you announced a large contract for 
the technology component of the Security Border Initiative, 
something that members of this committee are very, very 
concerned about, want to see work. Yet, in the past, in the 
department, there has been some difficulty with what was 
already there, the ISIS program, the allegation or criticism 
that certain components didn't work together, that there seemed 
to be bits and pieces that were out there but not integrated.
    And you made a statement that you were going to go slow on 
the implementation of this. Can you give us an idea of what you 
mean by that, how we are going to guard against having the same 
thing happen that happened before?
    Which appeared to be we threw some money at things, we 
bought component parts. They didn't seem to work well together. 
It didn't achieve what we wanted in the Congress and, I 
presume, what you want on the border.
    Secretary Chertoff. Well, I said we were going to proceed 
with all-deliberate speed, which I don't mean slowly. It means 
quickly but it means deliberately.
    First of all, we have an integrator. We are not just buying 
a lot of different pieces and slapping them together. We have 
somebody who has got the obligation to produce an integrated 
performing system, although we reserve the right to bid out the 
individual components of that system to make sure the 
government gets the best price.
    We are going to begin with the first 28-mile stretch of the 
border, which should be done in the spring. And that will give 
us an opportunity to take the technology, which is all proven 
in other contexts--it is not stuff that is just sitting around 
in the mad scientist's lab. This is stuff that has actually 
been used in various contexts, including by the military.
    But we are going to actually put it together, in an 
integrated way, on a 28-mile stretch of the border, so we can 
see it operate in our border environment, and then make any 
additional adjustments as we continue to roll it out in the 
high-tech areas.
    I think the combination of proven technology, one 
integrator who has responsibility for performance, a lot of 
ability by government officials to modify individual components 
to make sure we are getting the best price, and making sure 
that the final decisions are driven by the operators, the 
Border Patrol guys, and not by the scientists, I think those 
are the four elements that will make this a successful program.
    Mr. Lungren. If I could follow up on that, I had a hearing 
with my subcommittee on the northern border. Most everybody 
else went to the southern border.
    When you go up to the northern border and you see the 
expanse there geographically and you see the problem we have 
controlling the introduction of B.C. Bud, large amounts of 
marijuana coming in with high THC content, you see the 
possibility and potential for that vulnerability to be utilized 
by terrorists.
    How can you assure us that we are not going to forget the 
northern border, that we are going to do those things that are 
necessary to control it? And do you view that as a 
vulnerability, with respect to opportunity given to terrorists?
    Mr. King. I would ask the secretary to limit his remarks.
    Secretary Chertoff. The contract does envision the northern 
border as well. It is likely that the particular array of 
technology and tactics will be different, depending on what the 
border is.
    And, of course, we have an outstanding relationship with 
the Canadian intelligence service, which gives us an additional 
level of protection against the possibility of a threat from 
the northern border.
    Mr. King. The gentlelady, Ms. Jackson-Lee, from Texas is 
recognized for 5 minutes.
    Ms. Jackson-Lee. I thank the chairman.
    I thank the secretary for his presence.
    I think you know that we have had some tough times in this 
nation and tough times in this committee room, and tough times 
in terms of some of our responses and concerns about the 
Homeland Security Department and its oversight.
    And so, I want to just rattle off a series of questions, 
and I appreciate your response.
    Although today may be good news with respect to the 
relaxing of the requirements for our travelers, I want your 
best view, best consideration of whether or not, even though 
many of us, as members of Congress, have conveyed the angst of 
our constituents, whether or not it is good to allow liquids of 
any kind alongside of the perspective that we do not yet have 
the technology.
    I watched an individual buy water, just yesterday, and I 
thought they could carry it on at that point, and of course it 
starts today. But the water bottle is big. And even after the 
secured area, I would ask the question whether or not we are 
jeopardizing our safety. And as you well know, there are some 
experts that say that we should retain what we have done.
    I am going to ask a series of questions, so that is the 
first one.
    I would like to know, as well, whether or not you think the 
UASI's structure now, which was enormously frustrating, 
rendered by one of your employees who provided grants to places 
where we thought clearly had no relationship to risk, whether 
or not that has been improved.
    My own city of Houston lost a certain percentage of 
funding. It is certainly one of the cities high on the risk 
list because of our petrochemical and oil industry.
    And I want to know, have you fixed that? And are we going 
to be seeing politics again involved in the funding of UASI's 
grants?
    Just a few weeks or months ago, the FEMA Director Paulison 
came into my region. I thank him for that. And he is doing, I 
think, an excellent job. He met with local officials to talk 
about local TOPOFF drills.
    Specifically I will use the city of Houston, which, again, 
jeopardized, surrounded by petrochemical areas. Promised that 
we would have what we call a local community TOPOFF, not the 
massive ones that we see, which we hope to have prospectively, 
but ones that would be locally. And it tied in to the nonprofit 
grants for preparedness.
    We have seen none of those issued, and I would like your 
perspective on that, why none of those are issued. And I would 
like to go back and get my TOPOFF local session done.
    In the northern border, we were there just recently, and I 
would like to make it more dire than what has already been 
said. And that is that there were no border protection agents 
that could do second inspection. They are working 7 days a 
week, 24 hours a day, and if they stop a car and they want to 
send it in to secondary inspection, we don't have enough 
individuals.
    Lastly, let me say that nothing much did I hear from you on 
Katrina. Maybe a small part of your testimony represented your 
comment on that. We still have thousands in Houston. We still 
have conflicts with those thousands not having benefits. In 
fact, we have a lot of families, 2,000-plus households, that 
have been claimed ineligible. We need the Stafford Act to be 
removed so that we can work to provide for these individuals.
    And I would appreciate your answers to those questions, and 
I realize the time is short.

         Prepared Statement of the Honorable Sheila Jackson-Lee

    Mr. Chairman, I thank you for convening this important hearing on 
the Department of Homeland Security: Major Initiatives for 2007 and 
beyond. This hearing is essential to the exercise of our oversight 
responsibility over the Department of Homeland Security and critical in 
ensuring our great nation's preparation for future terrorist threats. I 
welcome the Honorable Michael Chertoff, Secretary of the Department of 
Homeland Security, and thank him for testifying today.
    The lack of resources available to DHS has been a troubling 
concern. Democratic efforts to increase the number of Border Patrol 
agents, provide funding for interoperable communications, provide 
funding for rail and port security, and increase Homeland Security 
grant programs have been rejected by Republicans. This year, New York 
City two most at-risk jurisdictions in our nation, received an 
approximately 40% cut in funding from the Urban Area Security 
Initiative (UASI) for FY 2006, despite the fact the Department 
broadened its new allocation process for FY 2006 to include both risk 
and need.
    In addition, New York City and Washington, D.C, are not the only 
high risk cities to be subjected to the Department's maldistribution of 
homeland security dollars. My own district of Houston, which is among 
the top 50% of all Urban Areas based on the FY 2006 DHS comparative 
risk analysis and among the top 25% of all Urban Areas in effectiveness 
of proposed solutions, was subjected to a more than 10% decrease in 
funding by UASI. Moreover, my state of Texas faced even more severe 
cuts of 53% in funding from the State Homeland Security Grant Program 
(SHSGP) and 29% in UASI funding.
    Accordingly, this hearing is crucial in highlighting the 
Department's ongoing failure on a wide range of issues including its 
inability to cogently articulate the distribution of its Homeland 
Security dollars. Moreover, the Department's ineptitude in the grants 
allocation process is emblematic of its handling of issues vital to our 
nation's security, such as disaster response, FEMA assistance, port and 
rail security, and contracting.
    Yesterday, I was pleased to be informed of the awarding of several 
grants that would strengthen the nation's ability to prevent, protect 
against, respond to, and recover from terrorist attacks, major 
disasters, and other emergencies that could impact this country's 
critical infrastructure. I think it is important that under these 
grants, my city of Houston and my state of Texas will receive the 
following grants:
        <bullet> More than $11.6 million for the Port of Houston;
        <bullet> $800,000 for intercity rail and ferry systems for 
        Houston;
        <bullet> More than $2.2 million for Buffer Zone Plans for 
        Texas; and
        <bullet> More than $5 million for Chemical Buffer Zone Plans 
        for Texas.
    As we proceed with the hearing today, I have serious concerns 
regarding the inadequacy of funding faced by DHS due to drastic cuts 
orchestrated by this Administration and Congress. One of the main 
reasons high risk cities have seen a cut in FY 2006 grant funding is 
because funding for the UASI program was cut by $120 million, the SHSGP 
was decimated by the 50% cut of $550 million, and the Administration 
has twice attempted to eliminate the Laws Enforcement Terrorism 
Prevention Program (LETPP).
    As we struggle to emeliorate the prudence and effectiveness of the 
Department's new allocation process, which determines the allocation of 
funding based on a combination of risk and anticipated effectiveness of 
the proposed solutions to reduce such risk, it is imperative that the 
Department work closely with these high risk cities and states to 
improve their plans to utilize DHS funds rather than simply penalizing 
them for the quality of their applications.
    In addition to a lack of resources, lack of accountability has been 
a recurring theme in DHS. The preparation for and response to Hurricane 
Katrina is the only the most obvious example of the lack of 
accountability within DHS. An estimated 11% of the $19 billion that has 
been spent by FEMA, which is $2 billion has been waste, fraud, and 
abuse, clearly illustrating how DHS' poor management practices can 
directly translate into waste, fraud, and abuse.
    Furthermore, the failure of this Republication Congress to enact 
the recommendations of the 9/11 Commission is troubling. The 9/11 
Commission report found that the inability of first responders to talk 
with each other and their commanders resulted in a loss of life. 
Despite these recommendations, the Republican leadership in the House 
repeatedly rejected attempts by Democratic members to address the vital 
need for emergency communication capabilities for first responders.
    Consequently, accountability, resources, and the failure to 
implement the 9/11 Commission recommendations are all critical issues 
that DHS has failed to adequately address. I eagerly look forward to 
your testimony and discussion today of these issues.

    Mr. King. I would ask the secretary if he could confine his 
answers to a minute and 30 seconds.
    [Laughter.]
    Secretary Chertoff. All right.
    The answer is that bomb experts tell us that the limit we 
have placed on the size of liquid is such that it does not make 
it feasible for someone to conduct a chemical assembly 
operation that would be necessary to create a bomb on a plane. 
I think it is a good balance. And we are really, frankly, 
relied on the experts for that limitation.
    We do intend to focus UASI and all our grants on a risk-
based approach. As I said earlier, obviously the projects have 
to be projects that fall within our preparedness guidelines. 
And I think this year, because of the timing change, we will be 
able to work with communities to help them do a better job.
    We do support local drills. I think the appropriations bill 
that is moving its way through Congress will provide us with 
resources to fund local preparedness exercises, which is 
important.
    On the nonprofit grants, there is a particular issue 
involving religious institutions. A significant organization 
actually requested us to hold off on making the grants until 
the new fiscal year when the eligibility requirements become a 
little bit more favorable.
    We are paying attention to the northern border. And, as I 
say, although the precise mix of resources is going to be 
different in different places at the border, we have not 
neglected that.
    As far as FEMA is concerned, as I say, there is legislation 
currently working its way in the appropriations bill with 
respect to the Stafford Act. When the law changes, of course we 
will apply the new law. As it is, though, we do have an 
obligation, as long as legal limitations are placed in effect, 
we are going to have to apply those limitations.
    Mr. King. The time of the gentlelady is expired.
    The gentleman from Connecticut, Mr. Simmons, is recognized 
fo 5 minutes.
    Mr. Simmons. I thank you, Mr. Chairman.
    Thank you, Mr. Secretary.
    Going back a little bit in history, I recall that Oleg 
Penkovsky, a Russian colonel, walked into the Soviet embassy 
and eventually became one of the most productive intelligence 
assets in the history of the Cold War.
    Today, to secure our homeland, we have created field 
intelligence groups; BICS, or border intelligence centers; 
fusion centers; and all kinds of centers and facilities that 
involve homeland security, law enforcement and everything else. 
Which is good, assuming we can coordinate all of these 
activities.
    But my question goes to the issue of radicalization, the 
idea that homegrown terrorists can become radicalized in 
Toronto or Great Britain or, yes, even here in the United 
States.
    And going back to the analogy of Oleg Penkovsky, a guy who 
walked into the embassy, who recruited himself, what programs 
or what capabilities do we have to take advantage of an 
American citizen, who might be a Muslim, might not, who comes 
in and says, ``Something interesting is going on in my 
neighborhood''? What capacity do we have to take that 
individual and to develop that individual and collect 
information?
    Secretary Chertoff. Well, the answer is that we regard that 
as a very important asset.
    Clearly the issue of homegrown radicalization is one in 
which--though intelligence about a threat is likely to come 
from a community itself. And that is one of the reasons we are 
spending a fair amount of time, including I personally, doing 
outreach to the Muslim community. I know Bob Mueller is and the 
other intelligence folks are.
    And the idea is, first of all, obviously tips are very 
valuable. And we do follow up on those, and they are a source 
of, for certainly our domestic investigators, to look into 
potential threats. But also because we do want to cultivate, 
ultimately, more significant long-term sources.
    So I think everybody involved in the intelligence community 
treats the cultivation of human intelligence as a very big 
priority.
    Mr. Simmons. Well, I thank you for that answer.
    Second question: Two years ago, the U.S. Army put out a 
manual on intelligence. And they considered that open-source 
intelligence was simply another source of information. I 
objected to that. And the most recent manual that has come out 
says that open-source intelligence is, in fact, a discipline 
like the disciplines: HUMINT, SIGINT, so on and so on and so 
forth.
    What is your future vision for open-source intelligence 
within the Department of Homeland Security, especially given 
the fact that, if you are developing, producing open-source 
intelligence, it is easier to share not just with other 
entities--the local, state and tribal entities--because you 
don't need a clearance or you don't need to be cleared as high, 
but also you can share some of this information with the 
American people?
    What is your vision for open-source?
    Secretary Chertoff. I heartily agree that open-source 
intelligence is a critical discipline in the intelligence 
field. And I don't want to speak for the DNI, but I know he 
agrees with that and he is focused on this as well.
    Sometimes there is a tendency to view that which is 
presented in front of your face as less valuable because you 
haven't had to steal it or intercept it. I don't think that is 
true.
    And in this case, the enemy actually is pretty open about 
what its intentions are and plans are, and there is a lot to be 
gleaned from looking at that kind of open-source material. We 
do look at that very seriously in our department, and it is 
looked at that way throughout the entire community.
    Mr. Simmons. I recently wrote a forward to a book called, 
``The Smart Nation Act: Public Intelligence in the Public 
Interest.'' I would like to share with you a copy, and 
hopefully somebody on your staff can take a look at the ideas 
contained therein.
    Mr. King. The gentleman from New Jersey, my friend, Mr. 
Pascrell, is recognized for 5 minutes. And if he has any books 
to peddle, he has the right to do it in the interest of equal 
time.
    [Laughter.]
    Mr. Pascrell. This is not off my time, Mr. Chairman.
    [Laughter.]
    Mr. Secretary, good morning.
    I would like to continue the path of Congressman Simmons. I 
believe in my heart that there is no ground, no anchor to your 
administration's strategy to fight terror. You, sir, are 
working in an environment that has not reduced the potential 
for the multiplication of terrorists. I don't think it is to 
your doing, but that is the environment that you are working 
in.
    And if I may refer to ``The True Believer'' by Eric Hoffer, 
going back to when you were school, and I am sure you read it, 
he says in section 85 on page 107, ``It is probably as true 
that violence breeds fanaticism as that fanaticism begets 
violence. It is often impossible to tell which came first. Both 
those who employ violence and those subject to it are likely to 
develop a fanatical state of mine.'' And he goes on from there.
    So I want to direct my focus on the nature of the beast. 
How do we get people to understand that the terrorists are the 
infidels and they are the pagans, the true pagans? How do we 
get people to understand that?
    And we can be talking about all the D's and the F's today. 
That is a good subject for Democrats. You know it, and I know 
it.
    We could be talking about how many border guards there are. 
I mean, when you look at the south, there is only one guard for 
every 16 miles, since one-quarter of them are on duty at any 
given time. We could talk about the north, where we have not 
done the job, period.
    We could talk about how many containers are being 
inspected, or we could talk about the 9/11 Commission 
recommendations that have not been implemented.
    But, Mr. Secretary, I am interested in, what is the long-
term plan in combating terror?
    We know that the Department of Homeland Security must be 
thinking about working with other federal agencies to combat a 
growing anti-Western agenda, both domestically and 
internationally. People who are coming back from Europe, 
friends of mine, are telling me that this is a true phenomenon. 
Folks have turned against us, our friends. We can't ignore 
this, when we are trying to protect our families and our 
neighborhoods and our borders.
    And my second part of that question is, besides what is the 
long-term, what are we using in terms of resources? And this is 
not a war issue, but isn't it true that the resources that we 
use in Iraq could be strongly used to deter the terrorists and 
to educate people as to who we really are?
    How do we prevent terrorists? You know, we can't do this at 
the end of the sword. You even said that when you got sworn. 
You may not have used those specific words.
    But how do you intend, how does your department intend to 
prevent it? And I hope you don't mind me asking that question.
    Secretary Chertoff. Well, let me begin by saying, 
Congressman, I think we all want the same thing, which is a 
safe America. So I never doubt anybody's motives. I think 
everybody, on both sides, believes that. Sometimes there are 
differences of opinion about how to achieve it.
    I will give you my view about what we need to do.
    I think, at the end of the day, we are in a struggle with 
an ideology of hate, that is not susceptible to being reasoned 
with. I can't tell you I fully understand the psychology of 
what attracts people to convert to an ideology and become 
suicide-bombers. I don't think it is just about economic 
circumstances. I think a lot of it has to do with particularly 
what goes on in the mind of young men.
    But I think the long-term cure for that is to establish in 
the world spaces for freedom and democracy and the rule of law. 
I think, in the long run, where people live in an environment 
where they do have freedom and they do have democracy and they 
do have the rule of law, that is infertile ground for 
terrorism.
    And I think, even in the West, where we see homegrown 
radicalism, it tends to flourish in societies where there are 
ghettos of people who are denied opportunity.
    One of the strengths of this country is, and something the 
president said literally a couple of days after September 11th 
is, we could not get misled into the treating the acts of a few 
ideologues as a reason to condemn a whole community. And we 
haven't done that, and that has been a very good thing.
    But the second thing I would say, with respect to 
resources, is this: For those people who have become 
radicalized and who are hardcore ideologues and want to kill 
us, I think that virtually anything will provoke them, whether 
it is a statement by the pope or a cartoon or a comment on a 
television. And I think trying to avoid the problem of terror 
by running around worrying about what we might do to give 
offense is a very self-defeating strategy.
    I think persistence and constancy and steadfastness on the 
battlefield are the number-one tool we have in order to win the 
war against terror.
    I would tell you, having looked at the history of this for 
a long period of time, when we have been seen as retreating in 
the face of the threat, the enemy has become emboldened. And 
talk about open-source; they don't keep it a secret. They tell 
you out front, ``We are going to chase the Americans out of 
here. They are going to run with their tails between their 
legs.'' Our friends begin to doubt our constancy, and our 
allies are afraid to step forward in Iraq and Afghanistan if 
they don't feel we are going to be there with them in the long 
run.
    So that steadfastness and the propagation of the rule of 
law and democracy and freedom are, to me, the long-term 
strategies to prevail in this--
    Mr. King. The time of the gentleman is expired.
    The gentleman from New Mexico, Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Secretary.
    As you know, I have been among the critics of the policies 
on the border. I would report that I had my staff call this 
morning to the border in New Mexico, and the family that was 
putting the greatest pressure on us right across from Chepas, 
Mexico--that is where the governor of New Mexico requested to 
bulldoze because they were mounting so many efforts; 200 and 
300 people a night were crossing this person's frontyard. They 
stayed on us constantly.
    We talked to them this morning, and they said it has been 
weeks--weeks--since they have seen a single person coming 
across. And I just want to compliment you and your agents 
there, because I see the effect of the National Guard and I see 
the effect of a long-term policy that you all couldn't state 
previously. It was our office that put in the bill, the 
homeland security bill that we sent across to the Senate about 
6 months ago, that you had to have a coherent policy. And even 
without legislation, I have seen Chief Aguilar now able to tell 
that. And the results are showing up at the border today.
    I would echo Mr. Souder's comments that methamphetamines 
are now pouring across the border in a very refined form. We 
have taken steps in this country to limit access to the 
amphetamines. And the result is we have cut down a lot of the 
local meth labs. We produce, on this side, when people are 
creating meth, it is about 20 percent pure, 98 percent pure. So 
we have got a lot of work to do.
    I think my question would be if there is a need at the 
border today because of the very solid program of catch and 
detain and remove when possible, the reports are along our 
border that we are out of holding space. And we are out of 
holding space for people who are just coming across to look for 
work. And it is pretty easy for our border patrol to 
differentiate.
    Is it possible for us to have some low-impact space that 
goes up immediately and increase that detention space? The 
tents, maybe, like the sheriff in Arizona has? These are not 
people, I don't think, that are going to try to run and get 
away; just people that we need time to process.
    And so, that would be my first question.
    Secretary Chertoff. I think we do have currently 
sufficiently capacity. We look at, not tents, because tents 
actually don't save you a lot of money, but we have looked at 
temporary structures. And we are prepared to deploy those. And 
I believe that the appropriation bill that is currently before 
the Congress would allow us money for 6,700 additional beds.
    But I want to come back to that Orantes case. If we can get 
that injunction lifted, that is going to free up a lot of bed 
space, because the amount of time we have to detain the El 
Salvadorans will decrease.
    So I think we can address this using the enhanced resources 
that Congress has given us, or I think is about to give us, I 
hope is about to give us, and some help with respect to these 
old court orders.
    Mr. Pearce. And that call that says that we are basically 
out of detention space is also from today, so keep in mind that 
we are doing pretty good work, but we are almost at a threshold 
where it begins to deteriorate.
    As I listened to the comments of my friend about what 
causes terror, I always ask the people who declare that terror 
comes from our policies here, I always wonder, ``Exactly what 
is it that Sri Lanka does?'' A greater percent of Sri Lanka's 
domestic airlines have been bombed than any other country in 
the world, and they don't have policies that enter the Middle 
East. They are a really docile nation.
    So I appreciate your idea that steadfastness and strong 
responses are a key to fighting the long-term war on terror.
    The vehicle barrier that is going up, the National Guard is 
putting up vehicle barriers. And I can tell you that I visited 
Organ Pipe National Monument in the southern part of Arizona. 
It is about a 300,000-acre national monument; 100,000 acres of 
that have been restricted to American traffic. And the vehicle 
barrier is beginning to work there too. They have already cut 
it. We knew they would. But they put it back up when they come 
through. And that four-inch pipe right there at windshield 
level is a very good deterrent at 100 miles an hour, which is 
what they have been doing.
    So, again, we have got a long way to go. I know we are 
going to have some periods of ups and downs. But I appreciate 
what your office has done, the long-term focus, and especially 
with the Pakistani solution and London, where we found before 
they used a process rather than after.
    So thank you very much, Mr. Chairman.
    Mr. King. The time of the gentleman has expired.
    And now I am privileged to recognize the gentleman who has 
shown extraordinary patience and forbearance in the past, not 
always being reached, the gentleman from North Carolina, Mr. 
Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman.
    And, Mr. Secretary, thank you for being here today. I know 
your schedule is busy.
    Mr. Secretary, in today's testimony, you list three things 
as your priority focus, and you have touched on that: threat of 
weapons of mass destruction, penetration in the country by 
terrorists, and the risk of homegrown terrorists. And, of 
course, we all are concerned about that and terrorism.
    Having read the testimony, I just want to share some 
numbers. ``9/11'' appears 21 times in your prepared testimony, 
while the word ``hurricane'' appears just once. And I will tell 
you in a minute why I was a little concerned about that. The 
word ``Katrina'' appears not at all, ``Rita'' neither.
    Just 1 year and 1 month after Katrina, I had to read 12 
pages to find this half-page to discuss the natural disaster 
preparedness and the response thereto. This half-page 
represents about 4 percent of the 14 1/2 pages.
    I ask that question, because in North Carolina we 
understand hurricanes and tornadoes. We get hit a lot, as does 
a lot of the East Coast and the Gulf Coast. And whatever reason 
you happen to be disturbed, whether by a terrorist and natural 
disaster, we are more likely to be hit by natural disaster than 
otherwise. And preparedness is important.
    What do you say to those who are out there and concerned 
about it and to those who say that we are only paying lip 
service, at best, to the risk of natural disaster?
    Because I met with our preparedness people in the last 
couple of weeks, and they are quite concerned that we really 
aren't giving them the time and the tools to do it, on the risk 
of natural disasters and having a balance.
    Because I have to say that it is hard to conclude otherwise 
when I read the testimony, because the testimony does not talk 
about those issues.
    Secretary Chertoff. Well, I will tell you, Congressman, if 
you look at words like ``all hazards,'' which appears elsewhere 
in the testimony, and if you look at the volume--and I am not 
encouraging you to read all my speeches, but if you look at the 
volume of speeches and other testimony I have given to 
Congress, talking about natural disasters, all hazards, I don't 
think I ever give a speech talking about the department and the 
department's goals in which I don't explicitly say and repeat 
maybe ad nauseum the fact that we are an all-hazards agency and 
we focus on natural as well as man-made disasters.
    I can tell you that, over the last year, I have spent a 
very large amount of personal time working with Dave Paulison, 
the director of FEMA, Admiral Johnson, the deputy director, 
ensuring that we have done a retooling of that agency and 
brought it to a level of preparedness never before dreamed of 
by the people who worked in that agency.
    That includes the capability to track truckloads of goods. 
It includes real ability to have robust communication in the 
field. I have actually met with Governor Easley personally. I 
have been down to North Carolina a couple times, talking about 
these issues. And the leadership of FEMA has been down there 
quite a bit.
    So I would venture to say that anybody who looked at my 
calendar or the volume of things I talk about would have no 
mistake about the fact that we are treating all kinds of 
hazards, whatever the cause, as being a very, very significant 
priority for this department.
    Mr. Etheridge. But let me go back, Mr. Secretary. I don't 
want to keep beating it, but I think it is important to 
acknowledge that this testimony will be looked at. And 9/11 is 
important, but when we do not mention hurricanes, an issue that 
is more likely to hit people on the Gulf Coast, our coast, East 
Coast, I think it is important that they get attention.
    And when you talk about the issues all the time and then 
you say ``all hazards,'' the people in the field do not really 
believe you are talking about natural disasters.
    Secretary Chertoff. I have to say, Congressman, I have 
talked about natural disasters and Katrina so much over the 
last year that, you know, sometimes I think my kids think they 
have a sister named Katrina.
    [Laughter.]
    I mean, I have talked about this quite a bit. And I take it 
very seriously. And I have logged thousands of miles traveling 
down to the Gulf Coast. I have met with virtually every single 
governor in a hurricane-affected region and talked to them 
quite specifically about what their plans are and what we are 
bringing to the table.
    And also, by the way, I have been very clear to all of them 
that we do not intend to supplant the primacy of state and 
locals in natural disasters. And every single governor has gone 
out of his or her way to applaud that vision.
    So, you know, I don't know how many times I used the word 
``all hazards'' in this particular testimony, but I think if 
you looked at the totality of our actions and our words, it is 
unmistakable that we have put a lot of emphasis on this.
    Mr. Etheridge. Thank you. Thank you for your time.
    I yield back. Thank you, Mr. Chairman.
    Mr. King. The time of the gentleman has expired.
    The gentleman from Washington, the chairman of the 
Emergency Preparedness Subcommittee, Sheriff Reichert, is 
recognized for 5 minutes.
    Mr. Reichert. Thank you, Mr. Chairman.
    Good morning, good afternoon now, Mr. Secretary, and thank 
you for being here.
    I wanted to ask some questions that were specific to 
Washington state and the district I represent.
    As you know, on July 28th of this year, the city of Seattle 
was shocked by the tragic shooting of members of the Seattle 
Jewish Federation. It has been over 11 months since the 
president signed into law the homeland security appropriations 
bill for fiscal year 2006. And the $25 million appropriated for 
security at nonprofit organizations still have not been 
distributed.
    And I just wanted to ask what the timeline on the 
distribution of those funds might be and whether or not you 
have considered, as our offices requested, a broader 
application for those grants.
    Secretary Chertoff. I did direct that they be distributed. 
We received a letter from one of the umbrella organizations 
that requested that we delay the actual distribution, because 
it is multiyear money, until after the new fiscal year this 
October 1. Because their view, which I think is probably 
correct, is that the language in the new appropriations bill 
would give us somewhat broader eligibility.
    So it is really at the request of at least a significant 
potential recipient that we have delayed for a few weeks.
    Mr. Reichert. And then also, following up on Mr. Lungren's 
comments and, I think, Ms. Jackson-Lee's comments on the 
northern border, obviously Washington state shares a border 
with Canada. And there is some concern from business members in 
Washington state regarding the Western Hemisphere Travel 
Initiative and the impact that the requirement of passports 
might have upon business there.
    And there has been a proposal made by members of the 
Washington state business community that would use a driver's 
license with either a barcoded technology attached to the 
driver's license that would automatically access terrorist 
lists and also criminal records lists.
    Are you aware of that request, and have you considered 
that?
    Secretary Chertoff. I am, and we are looking at it.
    The issue, of course, crossing the border, is our intent is 
not to insist on a passport, but it is something that is 
equivalent to a passport in terms of verifying citizenship. So 
we are going to consult with the State Department.
    We are obviously open to different solutions. We have 
talked, in fact, about the possibility of driver's licenses 
being one alternative if they reach a certain standard, which, 
of course, Congress has mandated under the REAL I.D. Act.
    So it is a proposal we are going to look at. Our interest 
here is an efficient and inexpensive but nevertheless reliable 
form of identification that achieves the recommendation of the 
9/11 Commission and this Congress's mandate.
    Mr. Reichert. Would a biometric solution be part of that, 
considering your comments earlier in your testimony in regard 
to identifying unknown terrorists? The barcode may not address 
that issue.
    Secretary Chertoff. Right. That is why some biometric 
feature would be advantageous. And that is one of the things we 
have to weigh, in looking at the proposals.
    Mr. Reichert. One last question about grants. In your 
testimony 2 weeks ago, before the Senate Government Affairs 
Homeland Security Committee, you mentioned that, since 2002, 
the department has provided $1.1 billion in risk-based grants.
    Given your clear commitment to protect the critical 
infrastructure, why have we seen delays in the announcement of 
the critical infrastructure grants?
    Secretary Chertoff. I think this year the process of, first 
of all, going through the risk allegation and then processing 
through the various proposals took almost the entire year.
    And I am probably going to wind up giving a speech at some 
point, talking a little bit more in-depth about what we are 
going to do for grants this coming year. But I think one of the 
great benefits we can give the local communities is coming to 
a, kind of, settled vision of risk. And I think we are pretty 
close to that now. I think we know what the high-risk areas 
are. I don't want, every year, to throw everything back into 
the pot and recook it.
    As we come to more stability--we have our national 
preparedness goals, we have our risk analysis--we can do this 
quicker. And I think the quicker we get the guidance out, the 
easier it is, first of all, to finetune the proposals, which I 
think the communities have complained about and I think that is 
a legitimate complaint, and then at the end we get the money 
out several months earlier than we have in the past.
    So I think we have built a base that will allow us to 
address this concern this coming year.
    Mr. Reichert. Thank you, Mr. Chairman.
    Mr. King. The gentleman yields back.
    The gentleman from Florida, Mr. Meek, is recognized for 5 
minutes.
    Mr. Meek. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you here.
    Mr. Secretary, we had about three hearings in the recent 
months about dealing with cameras on the border. And I know 
that you just pretty much, the department awarded the Secure 
Border Initiative, SBInet. And, as you know, we had mainly our 
hearings on the failing of ISIS and also American Shield 
Initiative, which I believe $429 million of the taxpayer 
dollars we spent, and we found that it was a miserable failure.
    This new contract that has been awarded to Boeing Company 
is, I believe, $2.5 billion. And not only the inspector general 
but also the GAO has major problems, as it relates to the 
department's ability to have oversight in the way that they 
should have to protect the taxpayers' dollars and also, I would 
add, protect the American people.
    If you can, kind of, share with us, because I would hate to 
continue to have these hearings talking about how we fumbled, 
as it relates to oversight. We are talking $420-something 
million; now we are talking $2.5 billion. What has the 
department done to make sure that these dollars are spent in an 
appropriate way and to make sure that we are on top of it, that 
we are not playing after-the-fact if we had what we need?
    And I think that the real question that I am asking here: 
Do you have everything you need within the department to 
oversee this particular contract?
    Secretary Chertoff. Well, we took very seriously all the 
lessons learned, going back a number of years through the 
various programs that have failed because of a lack of 
integration. And so, we begin with a strategic plan, and then 
we decided to build an integrated approach. I mean, that was a 
direct outcome of the lessons learned.
    We also brought in and built up our procurement 
capabilities, and we created a special program office for 
running this program, which had not been done in the previous 
program. So those were all institutional steps we took, 
frankly, because of the lessons that you are talking about.
    But beyond that, we have done several things with this 
contract to address very specifically some of the criticisms of 
past integrated contracts.
    First of all, though, you used the figure $2.5 billion. The 
contract does not have a dollar figure, because we are going to 
negotiate each part of the contract as we go along. That will 
give us the opportunity, although it will all be done within 
the general framework of the overarching contract, to 
substitute more competitive or more cost-effective sub-parts of 
the contract, if, in fact, in our judgment, that is a better 
fit for the American taxpayer.
    So that avoids the problem where the integrator is given 
too much authority and can start to spend the taxpayers' money 
without oversight.
    Through the program office, the operators are going to be 
involved in evaluation at every step of the way.
    And we are beginning with this 28-mile first element of the 
contract, so that, between now and the spring, we can actually 
see all this technology as it actually deploys in the 
operational environment of the border. So if it turns out that 
there is something that we have questions about, we can see it 
early on in the process, not at the end of the process.
    Mr. Meek. So, Mr. Secretary, I would take it that you have 
your best people, as it relates to oversight, on this 
particular contract?
    Secretary Chertoff. We do. We do.
    Mr. Meek. Also, reading you testimony, I noticed that you 
mentioned the fact that we had 9,000 border agents; we now have 
12,000; we are looking for 18,000 in the future.
    Is that going to be enough border agents to be able to keep 
up with SBInet? Because it is one thing to see illegal 
immigration taking place, and it is another thing to do 
something about it.
    So you have the border agents and also you have the 
detention beds that are there. Do you feel that everything is 
on track to make that happen in the way that it should?
    Secretary Chertoff. I do think it is on track. And I think 
you are exactly right. I mean, the technology gives you the 
detection; the agents have to do the interception. And I think 
that it will free up more agents to do that interception.
    Mr. Meek. Well, a part of our testimony that we heard from 
members that represents the agents, they were saying in some 
areas they had to shut the cameras down because they didn't 
have enough personnel to be able to respond to the need.
    So I look forward to hopefully hearing good reports from 
this new initiative. But I can tell you that there will be a 
hearing in November that will be dealing with this issue, and 
hopefully you will be a part of that.
    Thank you.
    I yield back, Mr. Chairman.
    Mr. King. The time of the gentleman has expired.
    The gentleman from Texas, Mr. McCaul, is recognized for 5 
minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here.
    And I was pleased to see that you awarded to the Houston 
port authority a sizable grant, which was very much needed. I 
know the chairman would prefer all of that money go to New 
York, but people in Houston are very pleased with that.
    I want to, first, commend you for what you have done on 
catch and release. We have talked a lot about that in the 
Congress. We passed legislation to end it. You didn't wait for 
that. You went ahead and exercised leadership. We are in a 
catch and return mode now. I agree, the Orantes decision, once 
we close that loophole, it will close what I consider to be the 
most dangerous loophole in our immigration policy.
    However, there is one other that I wanted to focus on, and 
that is the visa overstay issue. As you know, the hijackers 
didn't cross the southwest border. They actually came into the 
country legally. And they overstayed their visas. It is 
estimated that 40 to 50 percent of the 10 million to 15 million 
people here illegally have come into the country in that 
fashion.
    I wanted for you to comment on the exit program, as it 
exists today. I do view it as, again, like catch and release, a 
threat to our national security.
    And tell us, on two issues: one, the exit program through 
U.S.-VISIT, whether you will consider biometrics. I believe 
that if you took the fingerprints, you could confirm this is 
the same person.
    And then secondly, the absconder program, which is a very 
difficult effort to determine where are these people, as they 
have come into this country. And what incentives, 
legislatively, we could provide to require these people to come 
back and reregister.
    Secretary Chertoff. Well, I think U.S.-VISIT, of course, I 
think we currently have it at 14 airports and a couple of 
seaports and some land ports. It is a biometric-based program, 
because the theory is you use your fingerprints to exit which 
would match with the fingerprints you use to enter.
    Another tool we have to track where the people are exiting 
is, we are going to be moving to a system in the near future 
where you have to swipe your passport in order to leave if you 
are going through an airport of entry. And that will give us an 
additional way to determine whether people have left.
    One of the challenges with this system of regulating 
comings and goings is that someone could fly in but then leave 
through a RAN port of entry, where we don't at this point have 
a significant amount of U.S.-VISIT because it would make the 
traffic almost intolerable. So we have to work with that issue.
    But the second piece is, when we know people haven't left, 
what do we do about it? And that is where we have put 
significant additional resources into hunting down fugitives 
and absconders, whether it is students, for example, who don't 
properly register with the schools that they are being admitted 
to coming to, or people who are defying court orders who are 
fugitives. We have significantly upped the number of agents who 
are pursuing them.
    So these are all areas where the application of additional 
resources is going to be very helpful, in terms of reducing the 
number.
    But, frankly, tough internal enforcement in the employment 
rules is also important, because it is that employment that 
keeps people here. And if we crack down on those who 
systematically violate the law, we are going to have an impact.
    Mr. McCaul. Would enforcement mechanisms that we could put 
in place be helpful? For instance, tie it to driver's licenses 
that would have the date of the expiration be when the visa 
expires, so their driver's license wouldn't be valid anymore. 
Would things like that help?
    Secretary Chertoff. I think things like that, which, for 
example, with the REAL I.D. Act, which requires a valid 
driver's license that actually has a real security for 
determining identity and citizenship and your status, that is 
exactly where we need to go and where we are headed.
    Mr. McCaul. Okay.
    Thank you, Mr. Chairman.
    Mr. King. The gentleman yields back.
    The gentlelady from the Virgin Islands, Ms. Christensen, is 
recognized for 5 minutes.
    Ms. Christensen. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. I am going to try to get at least 
three questions in very quickly.
    First, the University of Pittsburgh's Center for 
Biosecurity has estimated that in order to bring the 5,000 
hospitals that we have in this country up to a state of 
readiness to be able to respond appropriately and adequately to 
a bioterrorism attack, each hospital would need about $1 
million apiece.
    What is proposed for 2007 is far below what is needed, by 
that estimate. And our public health systems, as well, are not 
evenly or well prepared to respond.
    So what is your plan for DHS, working with DHHS, moving 
forward, to better prepare our country to respond to a 
bioterrorism attack?
    Secretary Chertoff. Well, I can't validate this study, 
because I don't know anything about how accurate it is.
    I can tell you, though, from our standpoint--we obviously 
do partner with HHS. One of the major elements we are working 
with is BioShield, which, of course, is the system that would 
create market incentives for pharmaceutical companies to create 
precisely the kinds of vaccines and antidotes that we would 
need to respond to the major biological weapon threats.
    I am pleased to say that, in the last week, we completed 
all of the material threat determinations, which are necessary 
to permit the program to be fully engaged. And so HHS now is 
going to fund that.
    Ms. Christensen. I wasn't going to ask this one, but in 
BioShield, how does that reconcile with an all-hazards 
approach? Here we are just completing the material threat 
assessments for things that we know of. And we all know that we 
can expect a virus or a bacteria or some agent that is altered, 
new or manufactured.
    So what is the all-hazards approach here? Because we are 
only talking about seven or eight diseases, and we haven't 
created anything new.
    Secretary Chertoff. I want to be careful, because we are 
getting into classified areas.
    I do think we, obviously, want to focus on threats that 
either have existed in the past, that could be weaponized, or 
that could exist. Obviously you can't create a material threat 
determination against a potential hazard that no one has ever 
thought of or has never existed and we have no reason to think 
will exist.
    But we do try to stay ahead, being mindful of the fact that 
we are in an era where people can use genetic tools to alter 
microbes and viruses, and that is something we are mindful of.
    Ms. Christensen. If I get a chance, I will come back to 
that.
    In your Roll Call interview, you said that there has been a 
decrease in non-Mexicans and Mexicans crossing the border. Do 
you have any hard data or intelligence to demonstrate that that 
decrease is due to increased patrolling of the border and 
security there, and not to using other entry points that are 
not as secure or completely unsecured, like my border?
    Secretary Chertoff. Well, I asked precisely this question 
of the chief of the Border Patrol, who said to me that they 
have, what they call, third-party indicators, which is crime in 
the areas that are adjacent to the border and activity south of 
the border that demonstrates people staging in order to come 
across the border. And he said, looking at those third-party 
indicators, it was his judgment that the decrease reflected a 
deterrent effect.
    But I also want to be clear, because I don't want to 
declare victory too quickly: Smuggling migrants is a big 
business for criminal organizations.
    Ms. Christensen. Absolutely.
    Secretary Chertoff. I anticipate that there will be a point 
at which they may decide they want to take a run at us to see 
whether we are really going to hold the line or not.
    So I always caution people that, although we have good 
news, as I think Congressman Pearce said earlier, there are 
going to be ups and downs. There are going to be ebbs and 
flows. And we have to be resolute. I think we will only really 
keep this when the other side is convinced we really are going 
to be steadfast.
    Ms. Christensen. Or when all of our borders are secure.
    Secretary Chertoff. Well, as we--
    Ms. Christensen. May I ask one other question, though, 
please, Mr. Secretary? I see that the budget for the chief 
medical officer is proposed to be increased in 2007. I have 
never been able to be very clear as to what that person's job 
is or whether the expertise and the experience he brought to 
the job is being well-utilized.
    Could you tell me what you plan for that office?
    Secretary Chertoff. We have a whole series of medical 
issues that arise in everything that we do. To give you one 
example, in working with other agencies on the planning for a 
possible pandemic, avian flu, there are questions about what 
the Border Patrol operations would be, if we needed to screen 
at the border.
    And in order to make intelligent decisions about that, we 
need to have an understanding of the medical constraints and 
the medical considerations. And I need to have someone in my 
department who can make sure that, from our perspective, the 
operational plans that we are putting into effect make medical 
sense; that we are not assuming things about medical facts that 
turn out to be wrong.
    Mr. King. The gentlelady yields back.
    The gentleman from Pennsylvania, Mr. Dent, is recognized 
for 5 minutes.
    Mr. Dent. Thank you, Mr. Chairman.
    Good morning, Mr. Secretary.
    I spent a little time down in Laredo, Texas, last month. I 
was overall impressed with what CBP and Border Patrol are doing 
with the resources they have available to them.
    One thing I noticed, there was a lack of aviation assets 
down there to help with surveillance. Do you think it might be 
a good idea to incorporate other assets, like the Civil Air 
Patrol specifically, to help us with surveillance on the 
border? It seems like there are a lot pilots out there looking 
for reasons to go up in the air. And have you given serious 
consideration to CAP?
    Secretary Chertoff. I have been asked about this. Of course 
we don't own or fund the Civil Air Patrol, so money would have 
to be appropriated through the agency that does. But volunteers 
are good. My concern is always to make sure that whatever they 
do is fully integrated with what we are doing. And also, we 
don't want them to become an interference rather than a help.
    So we are building our plan around dedicated assets, which 
are not only our aerial assets for CBP, but also whatever comes 
in the technology package we are going to be getting through 
our SBInet, which will include some number of unmanned aerial 
platforms.
    And, you know, if there were money available and the intent 
to get the Civil Air Patrol involved, I would certainly be open 
to considering it, but it really has to be driven by 
operational concerns.
    Mr. Dent. Okay. My only observation was, down in Laredo, it 
seemed that there were about a few airplanes and maybe a couple 
helicopters, and that was it. And they needed some help.
    On the issue of catch and release, I applaud what you are 
doing there. You seem to have turned it into a catch-and-return 
policy for people from countries other than Mexico.
    With respect to Mexicans who are crossing--and you return 
them usually that day--the president, at one point, indicated 
that he wanted to repatriate Mexicans who crossed illegally 
more deeply into the country. How is the department doing in 
that effort?
    Secretary Chertoff. We are doing that. We do have a program 
with the Mexican government. I don't know if it is still in 
effect. It tends to be seasonally based; it depends on the 
seasonal flow.
    Again, there, we have to reach an agreement with them about 
the conditions under which people will be repatriated. 
Historically, they have said when people volunteer for interior 
repatriation, that is fine, but they haven't been willing to 
let us make it mandatory.
    And this is still a subject of negotiation. I think we 
would, certainly with people at risk, we would really prefer to 
mandate that they be repatriated to the interior, as opposed to 
simply leave it up to what may be their flawed judgment.
    Mr. Dent. And you had also, I think when Congressman 
DeFazio was asking questions, you started to talk about Hong 
Kong. You had visited Hong Kong. We hear a lot about that 
screening program. It is my understanding it takes 6 minutes to 
read each image, and that that was one of the problems with 
that program.
    In your testimony, you say that U.S. inspectors stationed 
at 44 overseas ports now screen nearly 80 percent of cargo 
bound for the U.S. before it reaches our shores.
    Can you just give me your observations on the Hong Kong 
program? What do you think are its deficiencies?
    Secretary Chertoff. I mean, we do screen a lot overseas.
    In terms of scanning, putting through the monitors, here 
are the constraints you have: First of all, you have to make 
sure that the land is not, itself, full of radioactive 
material. Otherwise, if it is, in the screening you would have 
to set the threshold so high it is not useful. You have to make 
sure that the footprint of the port accommodates moving the 
containers through a range of traffic. They are not 
insurmountable, but they are obstacles in some ports.
    So we are working with a number of ports, as we speak, 
looking to achieve what I think we all want to achieve, which 
is we would love to screen a lot of this overseas and scan a 
lot of it overseas, but I can't tell you that it is going to 
happen by a particular date, because the decision-making is not 
entirely within the control of the U.S. government. But it is 
something that, to the extent we can get done, is a high 
priority.
    Mr. Dent. But according to your testimony, it is 80 percent 
of cargo in those SCI ports is being scanned--
    Secretary Chertoff. It has been screened--
    Mr. Dent. Screened, okay.
    Secretary Chertoff. --overseas. And by the end of this 
year, 80 percent will be scanned through radiation detectors in 
our ports.
    Mr. Dent. Our ports. Okay.
    Another issue, you talked about vertical integration. I 
hear quite a bit from my state and local officials in the 
homeland security area about the ineffectual nature of some of 
the information they get from the Homeland Security Information 
Network.
    What can you do to reinforce the confidence of our local 
authorities that DHS is ready, willing and able to share 
information in a way that is more effective?
    Secretary Chertoff. I think one of the handicaps we had was 
we had not fully deployed the classified network, so we 
couldn't pass classified material over it. But we have started 
to deploy that now. I think seven cities are getting it now.
    And as we get that fully deployed, I think that will make 
it a much more useful tool for the classified channel of 
information.
    Mr. Dent. Thank you, Mr. Secretary.
    Mr. King. The gentleman yields back.
    I recognize the gentleman from Rhode Island, Mr. Langevin, 
for 5 minutes.
    And I will ask the gentleman from Nevada to assume the 
chair for a few moments.
    Mr. Langevin. If I could, I would like to just turn my 
attention to the issue of radiation portal monitors.
    Earlier this year, the Government Accountability Office 
released a report indicating that DHS cannot meet its goal of 
deploying radiation portal monitors at our borders and ports by 
its target date of 2009, with the current funding levels.
    Now, their report confirmed the Department of Homeland 
Security's estimated cost of deploying these monitors as more 
than $300 million short of the actual amount needed to acquire 
and deploy the 3,034 monitors the department says it needs in 
order to keep us safe.
    Now, I worked very closely with Director Oxford at DNDO to 
continue deploying this important technology.
    So my question is, do you believe that there are adequate 
funding levels for radiation portal monitors? And, if I could 
just ask again, what steps are you taking to ensure that our 
last best-chance technology will, in fact, be fully implemented 
by 2009?
    Secretary Chertoff. I believe we have adequate funding 
levels. In terms of the technology improvement, we have begun 
to acquire next-generation radiation detection equipment, which 
I think goes by the acronym ASP, advanced spectroscopic portal, 
which we will also ultimately use to substitute in some of the 
existing radiation portal monitor spots. That is a little bit 
more specific, in terms of being able to detect the isotope, so 
you have fewer false alarms.
    Now, that will not be fully deployed for quite a while. But 
I believe we are on target to have almost 100 percent coverage 
of the containers coming through our seaports by the end of 
next year.
    Mr. Langevin. I hope you won't hesitate to come back to 
this Congress and make the case for more funding if, in fact, 
we need that additional funding for 100 percent coverage at all 
of our ports and border crossings.
    The consequences are horrific if a terrorist is successful 
in smuggling a nuclear device or weapons-grade plutonium or 
highly enriched uranium obviously across our borders, which I 
know you are well aware of. And it would be a shame if, for an 
additional finite pool of money that we could provide, if we 
are not getting you what you need.
    I would like to turn my attention to the issue of 
interoperability. In your testimony to the Senate earlier this 
month and in the many subsequent interviews, you stated that 
this is a two-pronged problem. The first problem involves 
deploying adequate technology, and the other problem is getting 
local law enforcement and first responders to effectively be 
able to communicate.
    Now, you have repeatedly stated that some of the rules in 
place make it difficult for effective communication. So, on 
this point, I would like to ask again what you are doing in 
order to work with states and localities to standardize these 
rules and promote optimal communication. And have you made any 
progress on this, to date?
    And on the technology side, do you think that enough money 
is being spent to deploy interoperable technology?
    Just on this one point, obviously being on this committee 
and working very closely with my first responders back home, 
this is an issue that they are constantly talking about, they 
take very seriously. And Rhode Island, my home state, is making 
significant progress in moving toward a statewide interoperable 
communications system. In fact, we very well will be the first 
state in the country to have a fully implemented statewide 
interoperable communications system, again, provided the 
funding is commensurate with the job.
    But if you could address these questions.
    Secretary Chertoff. I think, if memory serves me, we have 
put about $2.1 billion in funding for interoperable 
communications. There is a technology currently available that 
allows you to bridge among these various types of frequencies. 
So the technology is there.
    But there are some communities which don't have it yet. So 
we have undertaken a thorough survey, which is supposed to be 
completed by the end of the calendar year, that will evaluate 
not only just the technical means but the protocols and the 
governance in our largest cities and all the 50 states to see 
exactly what the gaps are.
    If there are technical gaps, we can use some of the grant 
money to fill those technical gaps.
    By the way, what we will also do, frankly, is identify 
those communities which have not been able to reach an 
agreement on things like what code they are going to use, or 
who is going to talk to who, or who is going to have the CON 
when people are communicating with one another.
    And, frankly, we don't have the authority to order people 
to do this. This is the kind of thing that a fire department, a 
police department, emergency management group have to agree 
upon, or the mayor has to impose it. And I guess if they just 
can't reach an agreement we could order it, but I am not really 
sure what our legal authority to do that is. It is really 
something we have to shine a spotlight on and get the community 
to force the local leaders to reach those agreements.
    Mr. Gibbons. [Presiding.] The gentleman's time has expired.
    The chair recognizes Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    And, Mr. Secretary, thank you for being here.
    My subcommittee has spent a great deal of time over the 
last 2 years looking at Border Patrol issues, and I would like 
to start off my questions on that topic.
    I have before me a list of courses that are taught to 
Border Patrol agents. And I would like to ask you, Mr. 
Secretary, do you believe that Spanish language courses can 
only be effectively taught by instructors who are Federal 
employees?
    Secretary Chertoff. Spanish language courses? People teach 
Spanish all the time who are not Federal employees.
    Mr. Rogers. Okay. Do you believe that Spanish language 
courses can only be taught by Border Patrol agents?
    Secretary Chertoff. I would give the same answer. I mean, 
my kids are taking Spanish, and they are not being taught by 
the Border Patrol.
    Mr. Rogers. How about CPR and basic life support? Must that 
be taught by a Federal employee?
    Secretary Chertoff. Again, I mean, it needs to be taught in 
the context of the border by people who are familiar with the 
particular constraints in a border environment, when dealing 
with CPR and life rescue.
    Mr. Rogers. Okay. And that can only be done by a Federal 
employee who is--
    Secretary Chertoff. I don't know who is available to teach 
those things. But I know the skills that they need are they 
have to be familiar with that environment.
    Mr. Rogers. How about boxing fundamentals? Does that have 
to be a Federal employee?
    Secretary Chertoff. I think you could learn that in some 
good gyms, probably, in New York and--
    Mr. Rogers. Report writing?
    Secretary Chertoff. I think you probably don't need to be--
well, I won't be humorous. But I think you don't have to be a 
federal employee to teach report writing. You just need to know 
what is required in the relevant report.
    Mr. Rogers. Sexual harassment, HIV/AIDS awareness? Are 
those two courses that would require a Federal instructor teach 
them?
    Secretary Chertoff. Not intrinsically.
    Mr. Rogers. Physical conditioning or a course in firearm 
safety and regulations?
    Secretary Chertoff. Again, I mean, it has to be taught by 
somebody who is familiar with the particular demands of the 
Border Patrol job.
    Mr. Rogers. And you are saying all the things that we all 
know. It is just common sense. I could go on. There is a long 
list of courses that are benign and can be taught in virtually 
any academic setting, with the understanding that you have to 
orient it to the subject matter of jurisdiction.
    But the reason I raise these is, last night, the House and 
Senate conferees to the Department of Homeland Security 
Appropriations Act met to discuss the provisions of this 
conference report. And they are including in this language a 
provision that would classify instructors at the Federal Law 
Enforcement Training Center as inherently governmental 
functions.
    My question to you is, do you support that provision?
    Secretary Chertoff. Well, I haven't seen the language of 
the particular appropriation measure, because I understand 
conference has only reached an agreement; it hasn't been 
released yet. So it is hard for me to give you an answer in the 
abstract.
    I think it is a policy decision, whether Congress believes 
that this is the kind of thing that ought to be contracted out 
or it is the kind of thing that ought to be done by people who 
are fully employed by the agency. And--
    Mr. Rogers. Well, no, this is more than a policy decision. 
This is locking our hands. This is tying our hands and saying, 
``These courses, in our position, must be taught by Federal 
employees who are instructors as an inherently governmental 
function.'' And, in my view, it is ridiculous to say that 
teaching physical education is an inherently governmental 
function.
    Let me ask this, to put it in context. Post-9/11, the 
Transportation Security Administration immediately needed to 
train thousands of Federal Air Marshals to secure our airports. 
Do you know how those FAMs were trained? Was it by Federal 
employees?
    Secretary Chertoff. I was not around then. I have 
subsequently read newspaper articles that were critical of the 
process that was undertaken. Although I think that, in fairness 
to the people at the time, it was a crash program. And I think 
the method undertaken was intended to produce a very fast 
result under emergency circumstances.
    Mr. Rogers. Exactly. And that is the big concern I have 
with this provision that the conferees are considering, is 
that, from time to time, we are going to have exigent 
circumstances.
    And it is my position that you, as the secretary, should 
have the latitude to go outside the box, if you need to, to 
meet the demands for training that we may have as the Federal 
government.
    This language, if it remains in the conference report, will 
tie your hands and not give you that latitude. That is not only 
a practical problem for you from a manager's standpoint, that 
is a national security problem for this country, particularly 
given the shortages that we have on the Border Patrol.
    And I hope that we get a second round of questions, because 
I would like to talk to you about the issues on the border and 
how we are going to meet the goals that the President and you 
have set by 2009.
    And I thank you.
    Mr. King. [Presiding.] The gentleman yields back.
    The gentleman from Massachusetts, Mr. Markey, is recognized 
for 5 minutes.
    Mr. Markey. Earlier, in your response to Congressman 
DeFazio and the question of why the department does not require 
the screening of cargo containers overseas before they leave 
for a port in the United States, you said that calling for the 
screening of all such cargo for nuclear bombs over a 3-year 
period would be like calling for a cure for cancer in the next 
3 years.
    I think that is a faulty analogy. I think the better 
analogy would be that we called for the screening of all women 
to detect whether they had breast cancer in the next 3 years; 
to screen all American men to detect whether they had prostate 
cancer in the next 3 years.
    We are not calling for an elimination of nuclear bombs any 
more than we would call for a cure for cancer. What we are 
saying, though, is that there are detection devices that can be 
put in place to protect Americans at an early stage against 
cancer or against a nuclear bomb.
    And what I find flawed in your argument is that you set 
this up as almost an impossible standard, when we know that 
Hong Kong has already demonstrated that they can detect, using 
technology, nuclear materials, nuclear bomb materials on ships.
    My fear is that while, Mr. Secretary, you are saying that 
after the terrorists are in the air coming to the United States 
from another country that it is already too late, that the same 
thing is also true with a nuclear bomb in a ship heading for a 
port in the United States.
    Your administration opposed the amendment which I made to 
require screening of all cargo for nuclear bombs before they 
left a foreign port. I think it is a huge mistake. I think it 
is a terrible signal, 5 years after 9/11. I don't think that 
this Congress should leave without telling the American people 
that we are going to solve that problem.
    And instead, what you are saying is that it is like trying 
to cure cancer, when in fact it is not. The technology exists. 
The capacity to do it exists. The will of the American people 
to have your administration use its leverage to have foreign 
governments cooperate with us exists.
    And yet, your administration takes the greatest threat, 
that is, that loose nuclear materials overseas that could be 
obtained and purchased by al-Qaida are placed on a ship and 
brought to a port of the United States, which, at that point, 
is just too late.
    And I just think that your administration has not done the 
job to protect us against the greatest al-Qa'ida terrorist 
threat.
    Secretary Chertoff. Well, I guess I would say you have, 
kind of, a few false premises in this.
    And I begin by saying, I think we all would desire to have 
radiation scanning before things are loaded on ships. And that 
is why we have been working very hard with foreign countries 
and foreign ports to put precisely those measures into effect. 
And we are doing that as we speak because we want to produce a 
solution with real results.
    On the other hand, I don't want to beat the analogy to 
death, but it is a little bit like Congress mandating that 
every foreigner screen themselves for cancer. It wouldn't be a 
very effective mandate because Congress's writ doesn't run 
overseas.
    And to take the Hong Kong port as an example, I think, to 
be candid, you are somewhat overstating the efficacy of what 
they do in Hong Kong, in terms of their ability. In order to 
make the throughput work, they had to set the bar so hard on 
the radiation detection that it really wasn't terribly useful. 
So we are looking at how to adjust that in a way that does make 
it useful.
    Among other things, for example, in some ports the ground 
is so impregnated with inherently natural radioactive material 
that you can't really run a radiation portal monitor 
effectively because you are going to get a lot of false 
positives.
    Mr. Markey. By the way, there is already detection devices 
available to be able to distinguish, using germanium detection 
devices and other technology. That technology also exists, as 
well.
    Secretary Chertoff. And we are buying those. And we are 
buying those.
    Mr. Markey. That is what I am saying to you. You keep 
throwing out these red herrings. We might as well put an 
aquarium out here, there are so many of them floating around.
    It goes to the central question, do you support the goal of 
100 percent screening of cargo containers that could contain 
nuclear weapons being screened coming into the United States 
overseas? Do you support that goal?
    Secretary Chertoff. We are--not only?
    Mr. Markey. Do you support that goal?
    Secretary Chertoff. I am going to give my answer. Not only 
do we support it, but we are aiming at the goal of scanning the 
maximum amount of cargo that comes in from overseas through 
radiation portal--
    Mr. Markey. But not overseas, Mr. Secretary.
    Secretary Chertoff. No, no, I am sorry. What I--
    Mr. Markey. Not overseas.
    Secretary Chertoff. We are aiming at the goal of?
    Mr. Markey. You are saying it is like curing cancer.
    Secretary Chertoff. Well, I am not saying anything right 
now, because--
    Mr. King. The time of the gentleman has expired.
    The gentleman from Nevada, Mr. Gibbons, is recognized for 5 
minutes.
    Mr. Gibbons. Thank you very much, Mr. Secretary, for being 
here today. I know that if some of us had our way, you would be 
here every day; then you wouldn't get anything done and we 
wouldn't get anything done. And I appreciate the fact that you 
have got a big job ahead of you, and you are doing a yeoman's 
work in trying to put it together.
    We have talked a little bit today about the process of 
grants. And we have talked about, just tangentially, the UASI 
grants. And I want to publicly thank you for the time you spent 
in my office earlier this year, talking about the Las Vegas 
UASI issue.
    And I know that there has been a process whereby 
information now has been provided to your agency that wasn't 
available or wasn't included in that grant process. And I am 
hoping that, through that whole cycle of meetings and 
discussions, that there has come about a procedure or policy or 
even the ability to deal with information that is subsequently 
added in to those types of grants.
    And I certainly would appreciate that kind of consideration 
within the department. Because not every grant is specific to a 
specific community with the details that allows for you to have 
the right information, and we understand that.
    What I wanted to talk to you and ask a question about very 
briefly is information and intelligence-sharing coupled up or 
married with infrastructure today. Over the last several weeks, 
we have had this part of our food or agriculture infrastructure 
problem, the E. coli thing.
    What important lessons has your department gleaned or 
learned over the last few weeks, with regard to marrying up the 
intelligence side of things, as we try to do, to be predicting, 
to be out there working, with the infrastructure problem that 
we saw with the E. coli attack here lately? Just discuss for us 
a bit.
    Secretary Chertoff. Well, we actually have, as part of our 
infrastructure protection, we actually fund, I think it is in 
the University of Minnesota, a program that has a means to 
model and track outbreaks of food-borne poisoning or illness.
    Now, obviously, Food and Drug Administration and USDA have 
the principal responsibility for dealing with outbreaks of food 
poisoning like E. coli. And I don't want to trench on their 
area, but we obviously are concerned about poisoning or 
something of that sort.
    And the models would allow us to do pretty much what they 
did with this outbreak, which is to track back the source. 
Sometimes it is more difficult; sometimes it is less difficult.
    But I agree, that is not, in and of itself, enough. And we 
are in the process of constructing--we have gotten to the first 
stage of this--a national bio-intelligence surveillance center, 
which would fuse this kind of clinical data with intelligence 
data, so that if, for example, you had an outbreak of a 
particular food illness, and there was some intelligence coming 
from overseas that someone was going to carry out a food-
poisoning attack, that would right away tell you something very 
important that just having the clinical data wouldn't give you.
    So I think you are exactly right in saying this ability to 
fuse regular intelligence and the clinical intelligence is 
important. And that is what our NBIS, national bio-intelligence 
surveillance, project is designed to accomplish.
    Mr. Gibbons. I yield back, Mr. Chairman. Thank you.
    Mr. King. The gentleman yields back.
    The gentlelady from New York is recognized for 5 minutes.
    And I would advise members that we have been told that 
votes may start as early as 12:10. It will be a series of votes 
that will take us through to 1:00, and I believe the secretary 
has to leave. So I would ask members if they could try to be as 
quick as possible.
    The gentlelady from New York?
    Mrs. Lowey. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary. You have a huge job, and I 
wish you good luck.
    As you probably know, for the last few years, I have been 
talking to you and Kip Hawley, since he has been placed in his 
position, that, to me, it is very irresponsible and unfortunate 
that tens of thousands of airport workers don't have to go 
through a metal detector. I do, my colleagues do, we all do. 
But when they go into secure or sterile areas, they do not have 
to go through metal detectors. This doesn't make any sense to 
me at all.
    And we know that, in the British plot, one of the workers 
that were arrested wore a badge similar to the SIDA workers, 
and they were allowed to go through, allowed to function. So we 
know that this is a possibility, unfortunately. And we know 
that some workers at many airports have been accused of all 
kinds of plots. Okay.
    TSA lifted some of the restrictions on liquid carry-ons, 
including now allowing passengers to purchase liquids and gels 
from within sterile areas--things like this liquid, this 
liquid.
    When you talk to Kip Hawley--and he has said this 
publicly--that these items have been screened. Now, the 
department previously stated that it doesn't have the resources 
to inspect all airport employees and the goods that enter 
sterile or secure areas.
    So what is the story? Are they screening it? Are they not 
screening it? Can Hawley's statement be verified by you, that 
we are now screening all items that are entering sterile areas? 
What about secure areas? If so, how are you able to do this now 
if you couldn't do it a month ago? And are we now physically 
screening all airport workers who enter an area, regardless of 
whether they may have a SIDA badge?
    It is very upsetting to me that we know there have been 
incidents, certainly in London, incidents elsewhere, where 
workers may have gotten a SIDA badge 3 years ago, and they are 
allowed to enter these secure areas. Do you consider this a 
risk?
    And if we are allowing these objects to go through, why 
can't we provide screening for all the workers?
    Secretary Chertoff. Well, the SIDA badges, obviously to get 
a SIDA badge you have to be background-checked. And in addition 
to the badges themselves, there are in fact random inspections 
and other measures that are taken to protect the secured area. 
Goods that are shipped in, products that are shipped in to be 
sold in the secure areas are, in fact, it is my understanding, 
are, in fact, screened.
    Mrs. Lowey. Everything is screened?
    Secretary Chertoff. I can't tell you exactly what the 
mechanics are, but my understanding is that the products which 
are brought in to be sold are screened, so that if you are 
going to go to a store and buy a product, it will have gone 
through some kind of a screening product.
    Mrs. Lowey. So 10 bottles of foaming face wash are 
screened?
    Secretary Chertoff. Well, the little bottles are what you 
are allowed to bring in through the checkpoint.
    Mrs. Lowey. Or you can buy them.
    Secretary Chertoff. Well, you can buy anything there. And 
everything in the sterile area is supposed to be, in some 
fashion, screened or checked--
    Mrs. Lowey. Excuse me. If I can get a written response to 
that question--
    Secretary Chertoff. Yes, I will get you a written response.
    Mrs. Lowey. --I would like to know if every product that is 
brought into this secure area is actually screened.
    And secondly, what about these workers? They do get badges 
every 3 years, but what happens in the interim? You are saying 
that you have confidence that every worker who has that badge 
cannot be a threat to the security of passengers who are going 
to go on a plane.
    Secretary Chertoff. What I am confident of is that there is 
a layer of protections in place, involving not only the 
background check for the badge but also involving the presence 
of guards, the presence of dogs, the random inspections which 
are being conducted of people who are employees who are coming 
into the sterile area. And that, while no one of these is 100 
percent fullproof, because nothing in life is 100 percent 
fullproof--
    Mrs. Lowey. Excuse me, Mr. Secretary. You know that there 
were people with SIDA badges that were arrested at Dulles.
    Secretary Chertoff. This was--
    Mrs. Lowey. You know that. This was approximately about a 
year ago.
    Look, it seems to me, if we are taking every precaution, I 
would like to know what it would cost and why we can't spend 
that, when we are spending billions of dollars to make sure 
that everyone who goes into a secure, sterile area goes through 
a metal detector.
    Mr. King. The time of the gentlelady has expired. I would 
ask that the secretary give a written answer to that, since we 
have, roughly, a 10-minute time frame here now.
    The gentlelady from Florida, Ms. Brown-Waite, is 
recognized. If you try to keep it to 2 or 3 minutes, then 
everyone will get a chance to--
    Ms. Brown-Waite. Yes, sir, I certainly will try.
    Mr. Secretary, thank you for being here today. You have had 
some tough questions, and I know you answer them to the best of 
your ability.
    On August 28th, I wrote a follow-up letter to you about 
TSA's access control and perimeter security vulnerabilities, 
exactly the same issue that Mrs. Lowey was raising.
    I since have found out through some friends that I have 
that a search was done of the Tampa airport workers about 18 
months ago, and they found, I believe the person told me, about 
20 illegals who had these badges.
    I still don't have an answer to my August 28th letter, 
which was a follow-up on the issue that I raised and Mrs. 
Lowey, at the time, also was concerned about, that I raised at 
the hearing.
    I think what we need to be very careful of is that we are 
not giving people a false sense of security. And I would like 
to know when I can expect an answer to the letter--

                             For the Record

         Prepared Statement of the Honorable Ginny Brown-Waite

    Thank you Chairman King for holding this important hearing and 
thank you Secretary Chertoff for appearing before us today to discuss 
FY 2007 initiatives for the Department of Homeland Security.
    I appreciate the work you have done for the Department, leading it 
through some very trying times in the history of our nation. You have 
gathered qualified leaders to help mold and shape legacy agencies to 
face 21st century problems, like Chief Intelligence Officer Charlie 
Allen and new Undersecretary for Science and Technology, Admiral Jay 
Cohen.
    However, I must share with you my concern that DHS is overlooking 
several vital issues. For instance, I wrote you a letter on August 28th 
detailing some of my concerns about TSA operations management. As you 
know, the recent London terror plot involved an airport worker, and I 
am very concerned that our airports continue to be vulnerable. I ask 
that you take my concerns seriously and address this security gap in 
future Department planning.
    Additionally, I recently met with local law enforcement officers in 
my district who are having trouble with ICE. State and local officers 
are acting in good faith to enforce federal immigration law; however, 
when they call ICE agents to pick up the illegal aliens they apprehend, 
ICE is unresponsive. If we are serious about border security and 
serious about ending ``catch and release,'' we cannot dump the problem 
of arrest and detention on state and local law enforcement. They have 
their hands more than full with protecting Floridians.
    I know that Florida has an MOU with DHS so that state and local 
officers can be trained and act as ICE officials in helping to enforce 
immigration law, per the 287(g) program, yet that assistance cannot 
take the place of an effective and responsive ICE force. Frankly, I do 
not think I should be hearing from officers in Florida that we are 
failing them, while at the same time we tout to the American people our 
accomplishments in enforcing immigration laws and detaining illegal 
aliens. I ask that you continue to oversee ICE's cooperation with state 
and local law enforcement so that we can truly get a handle on our 
border security, and have effective detention and removal procedures.
    Finally, I must express to you my grave concern over a recent 
report that ICE closed its Bradenton detention center in Florida. With 
the number of illegal aliens overrunning our borders, I cannot 
comprehend the reasons for closing a centrally located facility. I 
understand that DHS officials are now forced to transport individuals 
from the Tampa area over to Orlando and then they are met by other DHS 
agents who bring the illegal to the Miami Detention Center. This is a 
significant drain on DHS's precious resources and its agents' time.
    Mr. Secretary, you know as well as I do that our national security 
hinges on our border security. We cannot afford to be complacent in 
this area. I look forward to continue working with you to secure our 
nation's vulnerabilities and keep Americans safe.
    Thank you, Chairman King, for the opportunity to speak with 
Secretary Chertoff today, and I eagerly anticipate hearing about the 
FY07 initiatives for DHS.

    Secretary Chertoff. We will get it out?
    Ms. Brown-Waite. --which was a follow-up to February, and 
we are at the end of September here.
    Secretary Chertoff. Well, I will see to it that you get an 
answer in the next couple weeks.
    Ms. Brown-Waite. Well, that is, I guess, at least a time 
frame.
    The other issue that I have concern about is, I understand 
that a detention center for illegals was closed in Florida. And 
it was the one down in Bradenton.
    Let me share with you, I had a discussion with several law 
enforcement members, sheriffs, a week and a half ago, who 
expressed concern, they call it the ``I can't get there'' 
excuse when they call ICE. They have someone who is an illegal 
alien--well, if you are closing detention centers, and for the 
few that are transported they have to be driven over to Orlando 
and then taken down to Miami, it is no wonder the response that 
they are getting is, ``We can't get there.''
    If you had to close a detention center, sir, good planning 
would say that you had another one that you could have opened 
up. And I really would like the answers to that.
    Secretary Chertoff. Well, I can't tell you the specific 
analysis of why they felt the Bradenton center was the best one 
to close. I mean, we have increased the number of detention 
beds, but the way we array them depends upon what the flow is 
and what the demand is. So, the Customs and Border Protection 
has to analyze what the usage is and whether we can combine in 
a couple places.
    Now, it is true that means there will be fewer places and 
it may be a little bit more travel. But we can't afford to keep 
centers open if they are not being fully utilized, because we 
have got a limited amount of resources.
    Now, I can respond to you and let you know what the 
thinking was, specifically with respect to this center. But we 
obviously all are trying to get the maximum usage and 
efficiency out of the resources we get from Congress.
    Ms. Brown-Waite. Let me just follow up on that. Apparently 
it was because of some construction issues there that your 
department felt it was a danger. But if it was a danger and if 
it was necessary--and I am told that it was at capacity--then, 
you know, we need to have something also in the Tampa Bay area.
    Certainly other areas--you know, Texas, California, all 
along the southern border--have problems, but we have problems 
in Florida too. And I can just tell you that the morale of the 
local sheriffs, when they get told, ``We can't get there'' or 
``We don't have the manpower to transport them to Miami,'' 
doesn't send the right signal either to law enforcement or to 
taxpayers or to members of Congress from the state of Florida.
    Secretary Chertoff. Well, as I said, look, putting aside 
the issue of the centers, there is a certain amount of manpower 
that ISE has. And, as with anything else, there are competing 
demands and priorities.
    And, speaking about sheriffs, when I was a federal 
prosecutor for over 10 years, we did not prosecute every single 
case, because there was a limit on the amount of cases we could 
bring. The agents didn't arrest every single person, because 
there was a limit on the number of cases they could bring.
    So I think the sheriffs understand, if they have been in 
law enforcement, that we are always trying to focus on the 
highest-priority things, and we are competing for those items.
    Now, the appropriations bill gives us additional resources. 
You can be assured we will use them effectively. But there will 
always have to be some process of prioritizing.
    Mr. King. The time of the gentlelady has expired.
    The gentlelady from California, Ms. Harman, is recognized 
for 5 minutes.
    Ms. Harman. Thank you, Mr. Chairman.
    Mr. King. And there are 9 minutes left in the vote.
    Ms. Harman. And welcome, Mr. Secretary.
    As I have been sitting here a while, I have reflected on 
the fact that our committee, which few people thought would be 
a serious and substantive committee, has really become a very 
serious and substantive committee. And I want to thank you and 
the ranking member and the hard-working staff for putting 
together a series of extremely interesting hearings, including 
today's, which gives us this chance to stop putting out fires 
and look forward.
    I am sure it is a relief to Secretary Chertoff to focus on 
other issues than Katrina, although it was fair game to have 
you focus on Katrina for the period that you did.
    I was a strong support of this department, but, looking 
back, I think we were extremely ambitious. And when you took 
over, Mr. Secretary, you had a big challenge, to change 
cultures in 22 agencies, to restore morale, to find better 
management, and to impose a strategy on the place.
    And some of your initial first steps were not perfect, but 
I think it is much better. And I think you have made yourself 
the public face of the department, which was a key thing for 
you to do. And I want to commend you for doing that.
    I also want to commend you for engaging personally with 
many members of this committee, I would hope all of us, on a 
nonpartisan basis to work on problems with us. That is 
refreshing.
    And in my case, for two trips that you made, so far, to the 
Los Angeles area, to look at the ports, the airport, how TSA is 
doing, how well schools are prepared, how we are doing with our 
interoperable communications system and so forth. These are the 
critical issues that communities like mine and communities like 
everyone's face. And you have engaged hands-on, and it is very 
welcome.
    Everyone has questions, and it is late, but I wanted to 
focus mine on port security. As we discussed as recently as 
yesterday, it is critical that the House and Senate resolve 
differences on the big bills that have passed.
    Neither bill is perfect. I don't think perfection is an 
option. I personally support the Markey amendment, but that is 
not in these bills.
    At any rate, I would like to ask you personally what 
additional steps you are taking to engage with the House and 
the Senate to see if we can close the differences and get a 
conference report filed this week so we can vote on it this 
week.
    Secretary Chertoff. Well, first of all, let me say it is 
not only a pleasure but it is always instructive to go out to 
Los Angeles and talk not only with you but with the local 
leaders. Because it is a great example of how everybody comes 
together. That is a place where you do get a lot of 
cooperation, and it is a real force multiplier. And I think the 
public ought to be pleased with your leadership and the 
leadership of your colleagues in the state and local 
government, in terms of how they deal with things down there.
    You know, we support the port bill. And I think it is 
appropriate and timely to have port legislation. I have been in 
discussion with people in both houses, as have others in the 
legislative affairs office. What we want to do is, let's have a 
ports bill. Let's not have a goulash bill.
    And so, I think our impulse has been, although recognizing 
that the legislative process does sometimes attach some 
elements to a port bill that might not be strictly port-
related, if it becomes so much that it begins to weigh down the 
underlying vehicle, then we begin to have a problem.
    Not every issue is going to be addressed through this bill. 
I think the bill, as it came out of the House, was a good bill. 
Clearly, if there are some additional measures to be put in 
place to address some related issues, like transit, that is 
fair game. But it should be with a minimum of encumbrance and 
micromanagement and things that would distort or unduly 
micromanage the funding process.
    So that is the message I am consistently carrying. And this 
is very much, as you know, a work in progress. I am sure there 
will be a lot of discussion over the next 24 hours about this.
    Ms. Harman. Well, I hope we come to closure. The bill that 
passed the House 421 to 2 was authored by this committee, and 
it is a great credit to this committee. And, Mr. Secretary, any 
more that you can do to close on this, to bring guaranteed 
funding and layered container security to America's ports, I 
think will be appreciated by the American people.
    Thank you, Mr. Chairman.
    Mr. King. I thank the gentlelady for her questioning. And I 
just want to say to the secretary and to the gentlelady that 
there have been strong bipartisan efforts to try to bring this 
bill to fruition, and right now I am cautiously optimistic we 
are going to go there.
    I also thank the gentlelady for her modesty in giving the 
committee credit for the bill, when it was actually hers and 
Congressman Lungren's. And I appreciate that.
    Ms. Lofgren, we have 4 minutes and 19 seconds to go. You 
are recognized for as much time as you wish, up to 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    The terrorists who attacked us on 9/11 all came in with 
visas, and many of them would not have been admitted had we had 
a biometric system that alerted the inspector at the port of 
entry that they were inadmissible.
    And one of the things that I have focused in on, as you 
know, is the utilization of biometrics.
    In your opening statement, you indicated that we would be 
moving to 10 prints on the IDENT system, which is good, since, 
in 2004, 2 years ago, the inspector general's office in the 
Department of Justice indicated that the IDENT watchlist with 
the two fingerprints failed to identify more than 70 percent of 
the criminal immigrants encountered by Border Patrol agents.
    So I have some simple questions. When will we be fully 
transitioned to the 10 fingerprints? When will we have U.S.-
VISIT deployed at all points of entry? When will we have the 
exit system fully deployed?
    And another issue: We had language in our authorization 
bill last year and the year before, I believe, indicating that, 
until we have benefits sorted and filed by biometrics in the 
benefits section of immigration, we will not be able to fully 
integrate this. When is that expected to be implemented?
    Secretary Chertoff. Well, let me say, first of all, U.S.-
VISIT, in the two-print VISIT, which is identification 
purposes, is fully deployed at all the ports of entry for 
entrants. The 10 prints--
    Ms. Lofgren. Including land entrants.
    Secretary Chertoff. Yes, but it is only used in secondary 
for land entrants, which is to say for non-Canadians and non-
Mexicans and non-Americans.
    Ms. Lofgren. So is there a plan to fully implement it all 
in?
    Secretary Chertoff. I don't think we are going to require 
Canadians and Mexicans to go through U.S.-VISIT. That would 
essentially destroy cross-border trade, and I think there would 
be an uprising from all the border states if we were to do 
that. I don't think it is necessary because we are going to 
address that through the Western Hemisphere Travel Initiative, 
where--
    Ms. Lofgren. Actually, the Canadians told me and Mr. 
Simmons they would prefer that to the implementation of a 
document that they think is going to destroy communication 
between--
    Secretary Chertoff. I will tell you, I would be interested 
to hear that, because I have never heard anything of that sort. 
And I can tell you the time it would take to do that, given the 
rate of traffic, would be just a huge, huge imposition on the 
ports of entry.
    With respect to 10-print, we are going to start rolling out 
the 10-print machines in foreign consulates this autumn. And we 
anticipate, in the next 2 or 2 1/2 years, having them in the 
countries where we require visas and at the ports of entry.
    But let me make clear, the idea is to capture the 10 prints 
only one time. After that, the two prints suffice, because the 
two prints will key in to the 10 prints which will be in the 
database. You don't need to take the 10 prints each time.
    So that is something we are looking to get done in the next 
2, 2 1/2 years. And that is a very high priority for us, 
because I think it really adds benefit.
    Ms. Lofgren. What about the exit system? What is the bottom 
line on that?
    Secretary Chertoff. The exit system I think is more 
challenging, because there are a couple of questions that have 
to be asked about it.
    First of all, is the value of the exit system commensurate 
with the expense of deploying it? Obviously the point of the 
entry system is to keep bad people out. But once people are in 
the country, and if they get a 90-day visa, for example, 
detecting their departure, while it may be very useful for 
purposes of managing the immigration problem, it doesn't add 
that much value with respect to terrorism, because someone will 
carry out the plot on day 89 instead of day 91.
    Ms. Lofgren. We have only got about a minute left. I don't 
want to be rude, but we have to vote.
    Where are we in terms of implementing the filing of benefit 
matters by biometrics?
    Secretary Chertoff. I will have to get back to you on that. 
I don't know the answer to that.
    Ms. Lofgren. I want to ask one other question. I had an 
opportunity to spend some time looking at our consular 
processes over the recess. And one of the things that struck me 
was, in the homeland security act, we mandated that visa 
security officers would be assigned in various consulates and 
embassies around the world. And I believe they have only been 
assigned in a handful, primarily in the Middle East.
    Right now the consular staff does not have access to the 
law enforcement information that the VSO officers would have. 
Don't you think it would be worthwhile to delegate to the 
consular staff that law enforcement clearance, so that they 
could process these matters promptly? I mean, obviously, their 
state department--
    Mr. King. The time of the gentlelady has expired. I would 
ask the secretary to give a very brief answer or submit his 
answer in writing.
    Secretary Chertoff. I am willing to consider that. I have 
to talk to the State Department and see what their views are.
    Mr. King. I want to thank the witness, Secretary Chertoff, 
for your very valuable testimony.
    I want to thank the members for their questions.
    The members of the committee may have additional questions. 
I would ask you to respond to these in writing. The hearing 
record will remain open for up to 10 days.
    The chairman again thanks the members of the committee.
    Without objection, the committee stands adjourned.
    We thank you, Secretary Chertoff.
    Secretary Chertoff. Thank you, Mr. Chairman.
    [Whereupon, at 12:24 p.m., the committee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                 <all>

</pre></body></html>
